<html>
<title> - U.S. POLICY IN THE INDO-PACIFIC REGION: HONG KONG, ALLIANCES AND PARTNERSHIPS, AND OTHER ISSUES</title>
<body><pre>[Senate Hearing 116-224]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-224
 
                  U.S. POLICY IN THE INDO-PACIFIC REGION: 
        HONG KONG, ALLIANCES AND PARTNERSHIPS, AND OTHER ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                          SEPTEMBER 18, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web: 
                         http://www.govinfo.gov
                         
                         
                         
                U.S. GOVERNMENT PUBLISHING OFFICE 
 40-773 PDF               WASHINGTON : 2020 
                         
                         
                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Stilwell, Hon. David, Assistant Secretary of State for East Asian 
  and Pacific Affairs, U.S. Department of State..................     5
    Prepared statement...........................................     7

              Additional Material Submitted for the Record

Response of Hon. David Stilwell to Question Submitted by Senator 
  James E. Risch.................................................    37

Responses of Hon. David Stilwell to Questions Submitted by 
  Senator Robert Menendez........................................    37

Responses of Hon. David Stilwell to Questions Submitted by 
  Senator Benjamin L. Cardin.....................................    48

Responses of Hon. David Stilwell to Questions Submitted by 
  Senator Jeanne Shaheen.........................................    53

Responses of Hon. David Stilwell to Questions Submitted by 
  Senator Edward J. Markey.......................................    53


                             (iii)        


   U.S. POLICY IN THE INDO-PACIFIC REGION: HONG KONG, ALLIANCES AND 
                     PARTNERSHIPS, AND OTHER ISSUES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Romney, 
Portman, Young, Cruz, Menendez, Cardin, Shaheen, Coons, Kaine, 
Markey, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Senate Foreign Relations Committee will 
come to order.
    Good morning, everyone. Thank you for joining us this 
morning.
    And, Assistant Secretary Stilwell, I am delighted to 
welcome you to testify before the committee for the first time 
in your new role. Since your confirmation on June 1, I believe 
you have been in at least 10 Indo-Pacific countries. You have 
had an opportunity to engage with our allies and partners, and 
to begin to tackle the challenges and seize the opportunities 
in this vital region, and also assess what needs to be done to 
advance American interests and the administration's Indo-
Pacific Strategy. And so, we have asked you here today to share 
your observations on these topics and to discuss the priorities 
and initiatives you plan to focus on in your role.
    I wanted to start with something that both houses of 
Congress are intensely focused on--in a very bipartisan manner, 
I might add--and that is the situation in Hong Kong. What we 
see in Hong Kong is particularly significant--is a particularly 
significant example of the Chinese Communist Party's long 
record of broken commitments. The Communist Party's promise 
that Hong Kong would maintain a high degree of autonomy was not 
just a verbal understanding, it was a commitment China made 
when it signed the Sino-British Joint Declaration in 1984. This 
summer's protests reflect years of frustration by the Hong Kong 
people, who are seeing an evaporation of their fundamental 
rights and freedoms. Though China calls this an internal 
affair, the United States has a distinct relationship with Hong 
Kong comprised of multiple formal agreements and other forms of 
cooperation. We have a legitimate interest in what happens 
there. U.S. policy should be focused on holding China 
accountable to its commitments regarding Hong Kong, and we must 
also support the Hong Kong people in pursuit of the rights and 
freedoms they were promised.
    With those factors in mind, this committee is working on 
bipartisan legislation spearheaded by Senators Rubio and 
Senator Cardin. The Foreign Relations and Banking Committees 
are--also recently sent a letter to the administration 
regarding the adequacy of U.S. export controls with respect to 
Hong Kong.
    I look forward to hearing you regarding messages the U.S. 
Government is sending to the Chinese Communist Party on Hong 
Kong and, importantly, our best options for supporting the Hong 
Kong people. China's actions in Hong Kong and elsewhere will, 
of course, figure prominently in today's conversation. However, 
I think it is important that we hold a hearing examining the 
whole region. The Indo-Pacific, home to three of the world's 
largest economies and five of the United States seven treaty 
allies, would be important to the United States even if China 
was not a factor. We have a significant interest in building on 
the alliances, partnerships, and connections that have grown 
between the United States and the region for over 200 years.
    My home state is a case in point. It is--it has long and 
deep U.S. ties with the Indo-Pacific. The value of Idaho's 
exports to Asia was 2.1 billion in 2018. More than 80 percent 
of Idaho's exports are sold directly to countries in the 
Pacific Basin. Multiple Indo-Pacific countries have deep and 
longstanding economic investments in Idaho. In fact, Taiwan is 
our second-largest source of foreign investment, exceeded only 
by Canada. And, since 2009, we have been the proud home of a 
Singaporean F-15 Training Squadron at the Mountain Home Idaho 
Air Force Base.
    Idahoans are familiar with some of the challenges posed in 
this region, as well. An example I raise often is Micron 
Technology, based in Boise. Their intellectual property was 
stolen by a Chinese company who then patented that technology 
in China and sued Micron. This example speaks to the importance 
of the United States remaining economically engaged with the 
region. It is imperative that we work to ensure open markets, 
fair trading practices, and, most importantly, the rule of law 
and adherence thereto. Anything less is unacceptable.
    With all that in mind, we need to support strengthening our 
allies and growing our partnerships on every front. In the last 
couple of years, the administration has announced multiple 
initiatives focused on the Indo-Pacific, and we look forward to 
hearing about progress and what more is required. There are a 
lot of areas where we need--where the need for that cooperation 
is evident. We need to reinvigorate our alliance with Thailand, 
following the election earlier this year, while continuing to 
message to them the importance of freedom of expression and 
democratic consolidation. The Pacific Islands are an area that 
is ripe for greater U.S. engagement, and I was glad to see 
Secretary Pompeo recently announce negotiations regarding 
compact extensions. We have to maintain our focus on 
safeguarding the global commons, especially in light of China's 
assertive behavior in Vietnam's Exclusive Economic Zone. And 
the coming months are important with respect to U.S. policy 
towards Myanmar as that nation heads toward elections in 2020.
    I look forward to discussing these and many other issues.
    With that, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Thank you, Assistant Secretary Stilwell, for joining us 
today. Almost 3 years into the Trump administration, it is nice 
to have a confirmed Assistant Secretary finally in place.
    I think you will find a great deal of agreement on this 
committee about the importance of the Indo-Pacific for the 
future of our security and prosperity and addressing the China 
challenge. We all know the statistics about the region's 
economic dynamism, number of the world's major militaries, the 
nuclear proliferation challenges, the governors' challenges, 
and the opportunity to grow regional architecture. Likewise, 
and I know it may be a surprise for some to hear this, but I 
agree with the Trump administration's idea behind its Indo-
Pacific Strategy. But, the administration has yet to 
demonstrate how this strategy will be fully resourced and 
properly implemented, or that it is a policy that actually 
makes us more competitive with China, not just more 
confrontational towards China.
    China's rise presents something different from our 
experience of the past 240 years, a nation with an economy 
equal or greater than our own, and a competitor across every 
dimension of power. With Xi Jinping declaring himself President 
for life, cracking down on civil society and human rights, 
introducing an Orwellian system of mass surveillance, advancing 
militarily in the South China Sea and economically in Africa 
and the western hemisphere, over the past three decades, China 
has sought to emerge as a regional military hegemon, including 
through increasingly provocative behavior in the maritime 
domain, which directly affects U.S. interests, including the 
free flow of commerce, freedom of navigation, and in the 
peaceful resolution of disputes, consistent with international 
law. When it comes to trade over the past decade, we have 
witnessed China increasingly bend the rules to its own benefit 
in order to secure its position as the world's second-largest 
economy.
    So, we agree on the challenge, and I think we would all 
welcome the emergence of a China that follows established 
international economic rules, supports international 
institutions, laws, and norms. But, thus far, the Trump 
administration's China policy does not seem to be having an 
effect in shaping or deterring China. For example, China's 
aggressive maritime activities in the South China Sea and 
ongoing building of infrastructure that could easily be turned 
to military use continues unchecked. China has yet to make any 
significant concessions in any of the deep structural issues at 
the heart of our trade and economic imbalance. Instead, China 
is going toe to toe in a good and easy-to-win trade war, and 
our economy is suffering.
    China's Belt and Road continues to expand and make inroads 
around the world. China continues to provide support for North 
Korea, even as North Korea continues to move forward with its 
missile and nuclear programs unconstrained, while the United 
States no longer conducts necessary military readiness 
exercises on the Peninsula. China's digital authoritarianism 
continues apace with ever-greater repression at home and 
exporting fully installed systems for despots around the globe. 
China's great leap backwards on human rights and governance is 
gathering momentum, with the administration conspicuously 
silent as the people of Xinjiang and Tibet suffer and Chinese 
civil society space is crushed. Beijing continues to squeeze 
Taipei, including, this week, the loss of yet another of 
Taiwan's diplomatic allies, on Trump's watch. The list goes on.
    If this is what winning with China looks like, I am truly 
tired, to the point of exhaustion. We must remember that merely 
being more confrontational with China does not make us more 
competitive with China. We have to leverage all of the tools in 
our toolkit. We must resource the Indo-Pacific Strategy. The 
administration is still far below the Indo-Pacific resourcing 
for our diplomacy and development of the final years of the 
Obama administration.
    Last week, I met with a senior elected official from an 
allied government in the region who told me that, quote, ``We 
have to rebuild our crumbling alliance.'' I am not naive enough 
to take what people tell me at their face--at face value, but 
one only has to look around the region to know that those words 
ring true. We have to address our own economic challenges and 
ensure America can compete with China as it assumes a global 
role through the Belt and Road Initiative. We must work with 
recipient Belt and Road countries to strengthen their ability 
to negotiate good terms for Chinese investment, or else risk 
having the rule of law in these developing nations washed away 
in a flood of Chinese cash. We can help set standards, offer 
technical and diplomatic support, stand up for human rights, 
including for labor and the environment, and support 
institutions that empower the weak to pursue justice with the 
strong.
    As I prepare new legislation to bolster our economic 
diplomacy and statecraft, I hope we can all agree that such 
efforts must be paired with bold efforts to prepare the 
American people to succeed in this new world.
    So, let me end, this morning, by making one last comment 
that I share with the Chairman about, and that is Hong Kong, 
which I know we will address in the course of the hearing, and 
where I am working with colleagues on bipartisan legislation on 
the Hong Kong Human Rights and Democracy Act. The special 
character of Hong Kong is one of the world's great success 
stories. The vibrancy of the people of Hong Kong and their 
economic success, and their yearning for democracy and self-
governance, is inspirational. It is critical that the United 
States stand with the people of Hong Kong.
    I have been disturbed by some of the rhetoric from the 
senior-most levels of this administration regarding Hong Kong 
over the past several months, as well as the suggestions that 
Hong Kong might be on the chopping block for a trade deal. So, 
I look forward, this morning, Mr. Secretary, to a clear and 
uncompromising statement about our support for the people of 
Hong Kong in their quest to maintain their self-governance and 
autonomy, to safeguard their human rights and their exercise of 
democratic freedoms of speech, of assembly, to select their own 
leaders, and to determine their own future. I hope that we will 
hear that from you.
    And I thank the Chairman.
    The Chairman. Thank you, Senator Menendez.
    For everybody's information, we have the usual challenges 
today, or at least frequent challenge, and that is, we have 
three votes scheduled at 11 o'clock. So, I think probably what 
we will do is rotate out the presiding while I go down and 
vote, and--but, I think we can get through this as we usually 
do.
    So, with that, Mr. Stilwell, thank you so much for coming.
    David Stilwell is the Assistant Secretary of State for the 
Bureau of East Asian and Pacific Affairs. Prior to his 
appointment as Assistant Secretary, he served in the Air Force 
for 35 years, beginning as an enlisted Korean linguist in 1980, 
and retiring in 2015, with the rank of brigadier general, as 
the Asia Advisor to the Chairman of the Joint Chiefs. He served 
multiple tours of duty in Japan and Korea as a linguist, a 
fighter pilot, and a commander. He also served as the Defense 
Attache at the U.S. Embassy in Beijing, People's Republic of 
China, from 2011 to 2013.
    Assistant Secretary Stilwell, welcome. We are anxious to 
hear your remarks.

STATEMENT OF HON. DAVID STILWELL, ASSISTANT SECRETARY OF STATE 
 FOR EAST ASIAN AND PACIFIC AFFAIRS, U. S. DEPARTMENT OF STATE

    Mr. Stilwell. Thank you, Chairman.
    Chairman Risch, Ranking Member Menendez, members of this 
committee, thank you for the opportunity to appear before you 
and to discuss U.S. policy in the Indo-Pacific region, 
including Hong Kong, alliances and partnerships, and other 
issues.
    During my first months in office, I have worked with 
Secretary Pompeo to advance the administration's Indo-Pacific 
Strategy. Our approach recognizes the region's central global 
importance and central role in American foreign policy, as 
underscored by the President's National Security Strategy. Our 
vision for a free and open Indo-Pacific is built on common 
principles that have benefited all countries in the region, 
including respect for the sovereignty and independence of all 
nations, regardless of size.
    U.S. engagement upholds enduring principles: freedom of the 
seas, market-based economics, and open investment environments, 
free, fair, reciprocal trade, and good governance, respect for 
human rights and fundamental freedoms, and friendly relations 
among nations based on respect for the principle of equal 
rights and self-determination of peoples. These are not just 
U.S. values, they are shared globally and across the Indo-
Pacific region. ASEAN's recent outlook on the Indo-Pacific 
recognizes and upholds many of the same values as essential for 
peace and prosperity, as do the regional visions of Japan, 
South Korea, India, Taiwan, and other partners.
    With respect to the economic pillar of the Indo-Pacific 
Strategy, the State Department is focusing on three main areas: 
infrastructure, energy, and a digital economy. We are working 
with our interagency partners to promote open markets, high 
standards of transparency, and free, fair, and reciprocal 
trade. Our economic initiatives help the countries in the 
region use private-sector investment as the path to sustainable 
development. In August, Secretary Pompeo announced nearly $30 
million for the energy development through the Japan-U.S. 
Mekong Power Partnership, or JUMPP, building on our Asia EDGE 
Regional Energy Initiative, announced by the Secretary last 
year. This month, we enhanced our Infrastructure Transaction 
and Assistance Network by launching a Transaction Advisory Fund 
to help countries negotiate complex infrastructure deals.
    With respect to governance, we seek to build capacity for 
good governance and adherence to international law, rules, and 
standards. This will strengthen civil society and democratic 
institutions, counter corruption, and help countries attract 
high-quality financing necessary to fuel their economic 
development while securing their sovereignty. We are 
implementing well over 200 governance programs under our whole-
of-government Indo-Pacific Transparency Initiative, and we are 
identifying new areas of cooperation with like-minded partners.
    On the security front, our aim is to build a flexible, 
resilient network of like-minded security partners to promote 
regional stability, ensure freedom of navigation and other 
lawful uses of the sea, and address shared challenges in the 
region. Last year, Secretary Pompeo committed nearly $300 
million in security assistance to improve maritime domain 
awareness in order to protect critical sea lanes. In addition 
to implementing this assistance, we launched a new program in 
August to counter transnational crime along the Mekong. And, 
just last week, we conducted the first-ever U.S.-ASEAN maritime 
security exercise. We have also seen continued significant 
progress in our relationship with India, including through the 
quadrilateral dialogue with Japan and Australia.
    The Secretary's travel to Thailand, Australia, and the 
Federated States of Micronesia in August reinforced these 
elements of our strategy. I will be happy to discuss details, 
as you may wish; also happy to discuss upcoming engagements, 
such as the second Indo-Pacific Business Forum, scheduled for 4 
November in Bangkok, on the sidelines of the East Asia Summit.
    But, now I would like to close with a note on China, Hong 
Kong, and Taiwan.
    The United States seeks a constructive and results-oriented 
relationship with China, grounded in fairness and respect for 
sovereignty. The Trump administration has emphasized the 
imperative to compete with China. This does not mean we seek 
conflict, nor does it preclude cooperation when our interests 
align. Yet, we will not shy away from exposing and contesting 
actions that undermine the free and open international order 
that has fostered peace and prosperity in the Indo-Pacific for 
decades. We have repeatedly expressed our concern over China's 
actions to bully Taiwan through economic coercion, squeezing 
Taiwan's international space, and poaching diplomatic partners. 
These actions undermine the cross-Strait status quo, which has 
created peace and benefited both sides of the Strait for 
decades.
    Meanwhile, Beijing's military modernization continues at a 
breakneck pace. The United States has an abiding interest in 
peace and stability across the Taiwan Strait. The U.S. has, for 
decades, maintained our support for Taiwan's ability to 
maintain a sufficient self-defense capability, and we will 
continue to support an effective deterrence capability for 
Taiwan.
    U.S. arms sales to Taiwan are informed by the Taiwan's 
Relation Act and based on continuing assessments of Taiwan's 
defense needs. To meet those needs, in 2019 alone, this 
administration approved and notified Congress of potential 
sales of more than $10 billion, critical defensive equipment, 
including Stinger missiles and F-16 aircraft. Nor will we be 
silent about the Chinese government's repression at home, 
including Xinjiang and Tibet.
    In Hong Kong, we support freedom and expression of peaceful 
assembly. Protesters in Hong Kong are only asking Beijing to 
keep its promises made in the Joint Declaration of Basic Law. 
Beijing has responded by repeatedly blaming U.S. Government for 
black-hand tactics and publicly identified U.S. diplomatic 
personnel, putting them at risk. China has provided no evidence 
of a black hand behind the protests in Hong Kong, because it 
does not exist. Hong Kongers look to the streets--took to the 
streets because Beijing is undermining its own one-country/two-
systems framework. As Secretary Pompeo has observed, the 
protesters are asking that Beijing uphold its commitments. And, 
as President Trump has said, ``we seek a humane resolution to 
the protests.''
    Thank you for the opportunity to speak to you today, and I 
look forward to your questions.
    [The prepared statement of Mr. Stilwell follows:]

               Prepared Statement of Hon. David Stilwell

    Chairman Risch, Ranking Member Menendez, and Members of the 
Committee: Thank you for the opportunity to appear before you, and to 
discuss U.S. policy in the Indo-Pacific region, including Hong Kong, 
alliances and partnerships, and other issues. I would also like to 
thank the Committee for its leadership in advancing U.S. interests by 
supporting engagement across the Indo-Pacific region.
                      the u.s. indo-pacific vision
    During my first months in office, I have worked with Secretary 
Pompeo to advance the administration's Indo-Pacific strategy. Our 
approach recognizes the region's central global importance and central 
role in American foreign policy, as underscored by the President's 
National Security Strategy. Our vision for a free and open Indo-Pacific 
is built on common principles that have benefitted all countries in the 
region, including respect for the sovereignty and independence of all 
nations, regardless of their size.
    The history of U.S. engagement in the Indo-Pacific is a story of 
trade and commerce, starting over two centuries ago when the trading 
ship the Empress of China left New York and traveled across the Indian 
Ocean to Canton, where it traded American ginseng for Chinese tea and 
porcelain. It is also one of shared sacrifice, as we joined with 
partners to push back the tides of imperialism, communism, and 
despotism.
    Since World War II, the Indo-Pacific region has undergone a 
remarkable transformation. Hundreds of millions of people have climbed 
out of poverty; dictatorships have given way to democracies; and the 
region has become home to world-class companies and the engine of 
global economic growth. This transformation was in no small part due to 
U.S. engagement. Today, the United States is the largest source of 
foreign direct investment in the Indo-Pacific. We conducted over $1.8 
trillion in two-way trade with the region in 2017. All five of our non-
NATO bilateral defense alliances are in the Indo-Pacific. And over 
730,000 Asian students are right now studying in the United States, 
accounting for more than two-thirds of international students in 
America.
    Over the decades, this engagement has upheld enduring principles: 
freedom of the seas; market- based economics and open investment 
environments; free, fair, and reciprocal trade; good governance; 
respect for human rights and fundamental freedoms; and friendly 
relations among nations based on respect for the principle of equal 
rights and self-determination of peoples. These are not just U.S. 
values; they are shared globally and across the Indo-Pacific region. 
ASEAN's Outlook for the Indo-Pacific adopted in June recognizes and 
upholds many of the same values as essential for peace and prosperity, 
as do the regional visions of Japan, South Korea, India, Taiwan and 
other partners.
    The Trump administration's approach involves a range of elements.
    With respect to the economic pillar of the Indo-Pacific Strategy, 
the State Department is focusing on three main areas: infrastructure, 
energy, and the digital economy. We are also working with our 
interagency partners to promote open markets; high standards and 
transparency; and free, fair, and reciprocal trade. Our economic 
initiatives help the countries in the region use private sector 
investment as the path to sustainable development. In August, Secretary 
Pompeo announced nearly $30 million for energy development through the 
Japan-U.S. Mekong Power Partnership (JUMPP), building on our Asia EDGE 
regional energy initiative announced by the Secretary last year. This 
month we enhanced our Infrastructure Transaction and Assistance Network 
(ITAN) by launching a Transaction Advisory Fund to help countries 
negotiate complex infrastructure deals. Next month we will host the 
first U.S.-ASEAN Cyber Policy Dialogue in Singapore as we continue to 
implement programs under the Digital Connectivity and Cybersecurity 
Partnership (DCCP).
    With respect to governance, we seek to build capacity for good 
governance and adherence to international law, rules, and standards. 
This will strengthen civil society and democratic institutions in the 
region, counter corruption, and help countries attract the high-quality 
financing necessary to fuel their economic development while securing 
their sovereignty. We are already implementing well over 200 governance 
programs under our whole-of-government Indo-Pacific Transparency 
Initiative, and we are identifying new areas of cooperation with like-
minded partners. These efforts strengthen democratic systems and civil 
society; empower citizens; fortify institutions; and eliminate laws 
that tie-up private investment while also combating corruption and 
hidden costs in foreign transactions.
    On the security front, our aim is to build a flexible, resilient 
network of like-minded security partners to promote regional stability; 
ensure freedom of navigation, and other lawful uses of the sea; and 
address shared challenges in the region. Last year, Secretary Pompeo 
committed nearly $300 million in security assistance to improve 
maritime domain awareness in order to protect critical sea lanes. In 
addition to implementing this assistance, we launched a new program in 
August to counter transnational crime along the Mekong, and just last 
week we conducted the first-ever U.S.-ASEAN maritime security exercise. 
We have also seen continued significant progress in our relationship 
with India, including through the Quadrilateral Dialogue with Japan and 
Australia.
                             recent travel
    The Secretary's travel to Thailand, Australia, and the Federated 
States of Micronesia (FSM) in early August reinforced these elements of 
our strategy and reaffirmed our commitment to partnerships across the 
Indo-Pacific. I would like to share a few highlights from that trip.
    In Thailand, the Secretary participated in several ASEAN-related 
meetings that demonstrated our support for ASEAN's central role in the 
region's architecture. At the U.S.-ASEAN Ministerial, ASEAN Foreign 
Ministers welcomed a U.S.-proposed leaders' statement on energy 
security. We highlighted increased U.S. economic investment, launched 
energy and transnational crime programs, and celebrated the 10th 
anniversary of the Lower Mekong Initiative. We also deepened our 
longstanding partnership with Thailand, one of our oldest allies.
    At the East Asia Summit Ministerial, the Secretary made a clear 
statement on China's bullying in the South China Sea and urged ASEAN 
and China to move forward with a meaningful Code of Conduct that 
comports with UNCLOS. The Secretary shared his concerns about 
backsliding on human rights and democracy in the region, including the 
plight of Rohingya from Burma's Rakhine State. He urged Burma and 
partners to create conditions conducive to the safe, voluntary, 
dignified, and sustainable return of displaced Rohingya. He reiterated 
our commitment to final, fully verified denuclearization of the DPRK 
and held a trilateral meeting with Japan and the ROK to discuss this 
and other concerns, including the need to resolve the differences 
between these two important U.S. allies. At the ASEAN Regional Forum 
Ministerial, he supported the adoption of three policy statements and 
joined Brunei in co-sponsoring a statement on Aviation Partnership and 
Security.
    The Secretary then traveled to Sydney for AUSMIN, where we deepened 
our coordination with Australia across the Indo-Pacific and beyond. 
Secretary Pompeo asked for Australian participation in patrols in the 
Straits of Hormuz. Two weeks after the meeting, Prime Minister Morrison 
announced Australia's intention to join.
    Finally we travelled to the Federated States of Micronesia, where 
the Secretary announced that we intend to negotiate amendments to 
certain provisions of the Compacts of Free Association with the Freely 
Associated States. Resourcing these commitments will require close 
consultation with Congress to advance partnerships, economic growth, 
and democracy and human rights as we see China expanding its strategic 
influence.
    I recently returned to the region to follow up on the Secretary's 
visit and continue to advance our strategy. My first stop was Timor-
Leste, one of the world's newest democracies, to represent the United 
States at the 20th anniversary of its independence referendum. During 
my visit, I attended a ceremony to witness the entry into effect of 
Timor-Leste's maritime boundary treaty with Australia, a first-ever use 
of the UNCLOS conciliation mechanism. In Indonesia, I reaffirmed our 
strong political, security and economic relations, and spoke with 
alumni of U.S.-sponsored exchange programs from across Southeast Asia. 
I also met with the ASEAN Secretary General to reiterate the importance 
of ASEAN to our Indo-Pacific vision.
    In Brunei, my counterparts hosted the 4th Senior Officials 
Dialogue, where we discussed ways to enhance our security cooperation, 
strengthen economic ties, and ensure respect for common values, 
including human rights. In meetings with Singapore's senior leadership, 
we reviewed our strategic partnership and the growing economic bonds 
evidenced by our surplus in goods and services trade with Singapore. In 
all my stops, the message from my interlocutors was clear: they want 
America present; they want America engaged in the Indo-Pacific, and, 
they want increased American economic ties, investment, and companies--
along with the transparency and good business practices they bring.
                          upcoming engagements
    The past few months have been quite productive, and I believe the 
trend will continue as we prepare for the November East Asia Summit, 
Indo-Pacific Business Forum, and APEC CEO Summit and Leaders' Meeting.
    We are responding to our partners' desire for U.S. economic 
engagement by holding the Second Indo-Pacific Business Forum in Bangkok 
on the sidelines of the East Asia Summit. The forum will reinforce the 
benefits of partnering with the dynamic U.S. private sector and the 
importance of high standard development, transparency, and the rule of 
law. We have already sent out invitations to nearly 400 U.S. companies 
in many of your districts, and I welcome you to join us.
    At the Forum, we will also highlight the significant human capital 
element of our Indo-Pacific Strategy. Our flagship youth leadership 
program, the Young Southeast Asian Leaders Initiative (YSEALI), has a 
network of over 142,000 young people committed to working with the U.S. 
on leadership and regional cooperation. We support dozens of other 
programs, such as the International Visitors Leadership Program, 
Fulbright scholarships, and the International Law Enforcement Academy 
in Bangkok. We will do more to highlight these outstanding programs and 
partner with other countries who share our commitment to investing in 
people.
                        beijing's malign conduct
    Finally, while the U.S. Indo-Pacific Strategy has made significant 
progress to reinforce and advance the free and open order in the Indo-
Pacific region, we are increasingly concerned that some are actively 
seeking to challenge this order. We are committed to working with any 
country that plays by the rules, but we will also stand up to any 
country that uses predatory practices to undermine them.
    As the President's National Security Strategy makes clear, we are 
especially concerned by Beijing's use of market-distorting economic 
inducements and penalties, influence operations, and intimidation to 
persuade other states to heed its political and security agenda. 
Beijing's pursuit of a repressive alternative vision for the Indo-
Pacific seeks to reorder the region in its favor and has put China in a 
position of strategic competition with all who seek to preserve a free 
and open order of sovereign, diverse nations.
    Since early July, Chinese vessels have conducted maritime surveys 
near Vanguard Bank with armed Coast Guard escorts and maritime militia 
in order to intimidate Vietnam and other ASEAN states away from 
developing oil and gas resources in the South China Sea. Through 
repeated illegal actions and militarization of disputed features, 
Beijing has and continues to take actions to prevent ASEAN members from 
accessing over $2.5 trillion in recoverable energy reserves.
    Economically, the Chinese government uses an arsenal of policies 
inconsistent with free and fair trade, including market access 
restrictions; opaque, discriminatory regulatory processes; currency 
manipulation; forced technology transfer; intellectual property theft; 
and creation of non-market excess industrial capacity to build 
Beijing's manufacturing base at the expense of its competitors. Through 
initiatives such as One Belt One Road, Beijing has flooded much of the 
developing world with hundreds of billions of dollars in opaque 
infrastructure loans, leading to problems such as unsustainable debt 
burdens and environmental destruction and often giving Beijing undue 
leverage over countries' sovereign political decisions. We welcome fair 
and open economic competition with China, and economic engagement 
between China and other countries that adheres to international best 
practices such as transparency, responsible lending, and sustainable 
environmental practices. But where China acts in a manner that 
undermines these principles, we are compelled to respond.
    We have repeatedly expressed our concern over China's actions to 
bully Taiwan through economic coercion, squeezing Taiwan's 
international space, and poaching diplomatic partners. These actions 
undermine the cross-Strait status quo which has created peace and 
benefitted both sides of the Strait for decades. Last week in Taipei we 
co-hosted the inaugural U.S.-Taiwan Consultations on Democratic 
Governance in the Indo-Pacific, to explore ways to prevent election 
interference and promote adherence to the rule of law in the region. 
This builds upon the success of the Global Cooperation and Training 
Framework, jointly sponsored by the United States and Taiwan, which has 
convened experts from over 30 nations from the Indo-Pacific and beyond 
to forge solutions to make our societies healthier, safer, and more 
democratic.
    Meanwhile Beijing's military modernization continues at a break 
neck pace. Its exercises in the region are increasingly complex and 
clearly intended not only to deter U.S. efforts to sustain our forward 
presence in the region, but to signal to other countries, and to the 
authorities on Taiwan, that they are under direct threat. Beijing's 
conduct is at odds with its public narrative of a ``peaceful rise.''
    The United States has an abiding interest in peace and stability 
across the Taiwan Strait. The United States has for decades maintained 
our support for Taiwan's ability to maintain a sufficient self-defense 
capability and we will continue to support an effective deterrence 
capability for Taiwan. U.S. arms sales to Taiwan are informed by the 
Taiwan Relations Act and based on continuing assessments of Taiwan's 
defense needs. To meet those needs, in 2019 alone, this administration 
approved and notified Congress of potential sales of more than $10 
billion dollars of critical defensive equipment including stinger 
missiles, F-16C/D Block 70 aircraft, M1A2T Abrams Tanks, and other 
needed equipment to preserve peace and stability in the Taiwan Strait.
    The United States seeks a constructive and results-oriented 
relationship with China grounded in fairness and respect for 
sovereignty. The Trump administration has emphasized the imperative to 
compete with China. This does not mean we seek conflict, nor does it 
preclude cooperation when our interests align. Yet we will not shy away 
from exposing and contesting actions that undermine the free and open 
international order that has fostered peace and prosperity in the Indo-
Pacific for decades.
    Nor will we be silent about the Chinese government's repression at 
home. As Secretary Pompeo has said, the ongoing human rights crisis in 
China is ``truly the stain of the century.'' In Xinjiang, authorities 
are deliberately attempting to strangle Uyghur culture and stamp out 
the Muslim faith, including by detaining more than 1 million ethnic and 
religious minorities in camps. And in Tibet, where the Communist 
Party's oppression goes back decades, thousands of Buddhist monks and 
nuns have been evicted from their residences in just the past year 
alone. Disturbingly--and ironically--the party continues to assert its 
role in the Dalai Lama's reincarnation process, even as President Xi 
has urged party members to remain ``unyielding Marxist atheists.'' We 
believe that Tibetans, like all faith communities, must be able to 
practice their faith freely and select their leaders without 
interference. We will continue to assert this belief, and we remain 
committed to supporting meaningful autonomy for Tibetans.
    Then there is Hong Kong, which has of course raised some 
particularly acute concerns in recent months. Hong Kong's astounding 
rise to a global center of finance and commerce was predicated on its 
open society, rule of law, and respect for fundamental rights and 
freedoms. That this rise continued even after Hong Kong returned to 
Chinese control in 1997 is a result of the assurances China gave to the 
United Kingdom in the Sino-British Joint Declaration (the ``Joint 
Declaration''); namely, that Hong Kong would maintain a high degree of 
autonomy and maintain its liberal traditions as reflected in the Hong 
Kong Basic Law (the ``Basic Law''). Preserving this autonomy was also 
the purpose of the United States-Hong Kong Policy Act of 1992, which 
has shaped U.S. policy toward Hong Kong since.
    We believe that the freedoms of expression and peaceful assembly--
core values that we share with Hong Kong--must be vigorously protected. 
Hong Kong is governed under Beijing's ``One Country, Two Systems'' 
framework. Protestors in Hong Kong are only asking Beijing to keep its 
promises made in the Joint Declaration and the Basic Law. Beijing has 
responded by repeatedly blaming the U.S. Government for ``black hand'' 
tactics and publically identified U.S. diplomatic personnel, putting 
them at risk.
    China has provided no evidence of a ``black hand'' behind the 
protests in Hong Kong, because it doesn't exist. Hong Kongers took to 
the streets because Beijing is undermining its own ``One Country, Two 
Systems'' framework. As Secretary Pompeo has observed, the protestors 
are asking that Beijing uphold its commitments under the Joint 
Declaration and the Basic Law. And as President Trump has said, we seek 
a ``humane'' resolution to the protests. The United States supports 
peaceful assembly and freedom of expression.
    Thank you for the opportunity to speak with you today. I look 
forward to your questions.

    The Chairman. Thank you, Mr. Secretary.
    I am--we are going to do a 5-minute round of questions 
right now, and I am going to take part of my time here, right 
out of the chute, to ask a couple of questions.
    What--number one, what do you view as the most effective 
thing we can do, as far as supporting the people of Hong Kong?
    Mr. Stilwell. Senator, we can continue our support, both 
rhetorical and legal, as emphasis by the Hong Kong Policy Act. 
We can, again, be vocal, not just the administration, but the 
Congress, as well, in addressing the issues. And I would say 
that we have already been successful, in that Carrie Lam has 
backed out and withdrawn the Extradition Act, which was the 
origins of this--the current friction. So, I would take a 
little credit, the U.S. Government, on having applied 
sufficient pressure and encouraged Beijing to do the right 
thing in Hong Kong.
    The Chairman. I appreciate that.
    Overnight--I do not know if you saw, or not--but, the Hong 
Kong Government opened a Dialogue Office, supposedly for 
dialogue with protests. Do you think that is going to have any 
significant effect, or is that more cosmetic than anything 
else?
    Mr. Stilwell. Senator, I think any dialogue or any 
addressing of the protesters' concerns is--will be effective, 
and it does give them both a voice that they asked for and the 
option to execute their choice of government; again, as we 
preserve--as the Hong Kong--or, as the Joint Declaration 
provides for 50 years of autonomy as they adjust to this one-
China/two-systems process. So, yes, I do think the dialogue, 
especially an open dialogue, will have the desired effect.
    The Chairman. Appreciate that.
    I think most Americans are not aware of the new initiative 
in China, relatively new initiative in China, regarding the 
social credit system. And I wonder if you could talk about that 
for a minute. I kind of view this like the opposite of our 
Social Security system. Our Social Security system is put in 
place to give benefits to people that need it, and keep track 
of it. And the social credits in China is just the opposite. It 
is set up to receive benefits--the government to receive 
benefits from the people, and also to keep track of it, which 
is stunning, the way they are keeping track of what people do 
in order to gain these so-called social credits with the 
government. Could you talk about that for a minute?
    Mr. Stilwell. Yes, Senator. Thank you for that question.
    What the Chinese government is proposing, and what Xi 
Jinping has published two volumes on, titled ``The Governance 
of China,'' is a new type, a new way of governing, both 
domestically and increasingly, we are seeing, globally. This 
type of governance is not what we are used to, not what Francis 
Fukuyama declared as the end of history; systems that recognize 
the interests of the people who are governed, and the right for 
those people to identify the types of government they want. 
What the new-type system looks at is, you know, a government 
that sees itself as able to identify what is best for its 
people, and then institute activities, such as you mentioned, 
with the social credit system, to identify that.
    The definition of human rights is interesting, in that we 
consider individual human rights. The United Nations charter 
identifies the rights of individuals. And this system 
identifies a broader sense of, ``The needs to the many override 
the needs of the few.'' And so, it is a different approach to 
how you run a country and how you govern, both, again, in China 
and outside.
    As social credit goes, it--that particular approach to 
governance is basically a substitute for trust. And, as I said 
in my hearing, I want to make sure that we do not demonize 
everything. As--there is room for engagement, there is 
certainly room for competition, as Senator Menendez said. But--
so, rather than--I do like--I will do my best to seize both the 
positives and negatives. In this social credit thing, it is 
hard to see a lot of positives, in that anything you do online, 
who you associate with, those things are, you know, tallied and 
used against you, or for you, you know, in determining your 
reliability and your buy-in to this system of government.
    And so, I think more will come out on this subject. The 
implications are enormous, especially in a very digital and 
technical leadership system that includes surveillance. And we 
are seeing that surveillance, especially in places like 
Xinjiang and other places. So, I am happy to go further, if you 
would like.
    The Chairman. Thank you. I appreciate that. And I also view 
it, it seems to me, as a way for the government to surveil its 
people to keep track of its people overall. So, thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, do you believe that our China policy is a 
function of our Indo-Pacific Strategy, or that our Indo-Pacific 
Strategy and policy is a function of our China Strategy?
    Mr. Stilwell. Senator, that is a great question. On my 
desk, I have a piece of paper----
    Senator Menendez. The only ones I ask here are great 
questions.
    [Laughter.]
    Mr. Stilwell. No, no, no, so I mean I----
    The Chairman. Can we vote on that?
    Mr. Stilwell. --I mean that sincerely. On my desk, I have--
--
    [Laughter.]
    Senator Menendez. I am willing to take a vote on that.
    [Laughter.]
    The Chairman. Secret ballot.
    [Laughter.]
    Senator Menendez. I am sorry. All right. I am losing my 
time, here.
    Mr. Stilwell. Okay. On my desk,----
    Senator Menendez. I mean, it is not a chicken-or-egg 
question. It is----
    Mr. Stilwell. No, no.
    Senator Menendez. It is--rather, it is--important elements 
of strategy and priority flow from how one defines their 
strategic goals and then the lines of the--you know, the ends, 
the ways and means to achieve it. So, that is why I am asking.
    Mr. Stilwell. Thank you. On my desk, I have a piece of 
paper that--you know, printed from a management school, that 
identifies the differences between policy and strategy. And 
they quite often get confused. And certainly I am one of those 
who confuses it. But, I do think, in general, our strategy 
certainly informs the policy. I am taking it in that regard. 
And the--you know, the policy--the Indo-Pacific Strategy 
addresses U.S. interests in the region--economic, diplomat--or 
security, and governance interests. And then from those come 
decisions that we make on individual actions and decisions that 
we make that end up generating our policy. And so, in the 
broadest terms, the Indo-Pacific Strategy, again, seeks to 
identify those things that are particular strengths. And, in 
this case, I think governance--having just addressed the 
Chairman's question--the governance is the clearest leader and 
the one we have not talked about in the recent past. Again, 
like we said, we have assumed that open democratic systems and 
free-market economies are obvious, but in--that is no longer 
the case. We can no longer assume that. And so, again, I think 
the strategy, as we look at the economic leg, in particular, 
addresses that.
    Senator Menendez. Yeah. But, what I am trying to understand 
is, Does our China policy--is that a function of what we look 
at the Indo-Pacific region, or is the Indo-Pacific policy a 
function of how we look at China and its strategy? Is one 
driving the other?
    Mr. Stilwell. Sir, thank you for that clarification. And 
this is not all about China. And so, that is why an Indo-
Pacific that looks at the region, writ large, and in the 
region, of course, is the China--China. And it is the largest 
part, certainly, in terms of challenges, but there are many 
opportunities there, as well. And then recent travel has really 
shown a--an understanding of that as we broadcast this and then 
inform and get out personally with the leadership. In those 
most recent trip to Timor-Leste, Indonesia, Brunei, and 
Singapore, we had many opportunities to clarify these questions 
you are asking, as well, is where they fit into the strategy 
and then, again, is this all about China? And I would just 
restate that it is not.
    Senator Menendez. Let me move to Hong Kong. On September 8, 
thousands of Hong Kongers went to the streets, marching towards 
the U.S. Consulate, calling on the U.S. to pass and support the 
Hong Kong Human Rights and Democracy Act. Does the 
administration support the Hong Kong Human Rights and Democracy 
Act?
    Mr. Stilwell. Thank you, Senator. The administration 
supports Hong Kong's autonomy, its democratic systems, and all 
the others. We will continue to voice that. The protests in 
front of the Embassy----
    Senator Menendez. But the--I appreciate that. Does it 
support the legislation that I just directed to you? That is my 
specific question.
    Mr. Stilwell. Yes, Senator. I need to take a longer look at 
the legislation and understand that better----
    Senator Menendez. I would urge you to do so, because there 
is a pretty bipartisan effort here, and we believe that it is 
an appropriate one. So, I would like to get a clearer answer 
from the administration. Do you, or do you not, support it? Or 
do you have reservations about it? You know, we would welcome 
participation, but I think this is a moving vehicle. So, I 
would like to know where the administration is at on that.
    [The information referred to follows:]

    The Committee Received No Responses From Mr. Stilwell for the 
Following Questions

    Do you, or do you not, support it? Or do you have reservations 
about it?


    Senator Menendez. Also, does the administration believe 
that Hong Kong is fully autonomous, as envisioned under the 
Basic Law?
    Mr. Stilwell. Senator, to date, and then given the 
retraction of the Extradition Act, the determination is still 
that Hong Kong is--in accordance with the Hong Kong Policy Act, 
has sufficient autonomy to continue.
    Senator Menendez. What steps is the United States taking, 
if any, to make sure that crowd-control equipment we export to 
Hong Kong is not being used to commit human rights violation on 
the streets? I see that the British suspended their crowd-
control exports to Hong Kong. We find the use of, as Amnesty 
International has verified, rubber bullets, officers beating 
protesters who did not resist, aggressive tactics to obstruct 
journalists, the misuse of tear gas and pepper spray. What are 
we doing in this regard?
    Mr. Stilwell. Thank you, Senator.
    Of course, our interests in making sure that, as the 
President said, you know, retaining--maintaining a--peaceful 
protests and avoiding violence to the maximum extent possible. 
So, we, Commerce, and others, we carefully review these 
applications for these sorts of controlled goods on a case-by-
case basis. And in each instance, we weigh the national 
security and foreign policy and human rights implications of 
each of those sales.
    Senator Menendez. So, we have not been suspending any 
sales----
    Mr. Stilwell. Sir, not to my knowledge.
    Senator Menendez. Well, it is something we should be 
considering, it seems to me, if they continue to happen.
    Finally, let me ask you. You traveled recently to Japan and 
Korea. These are two incredible allies of the United States. 
And, in our joint mutual security and other interests, both on 
the Korean Peninsula and certainly as it relates to China, 
maintaining that trilateral unity is incredibly important. We 
have seen a devolution of the relationship between Japan and 
South Korea over a series of issues. Should we not be playing a 
role to bring these two allies together and stop the spiral 
downward, and try to get to a better place so that we are not 
ultimately on--you know, creating a risk in a vacuum, here, 
where China can particularly take advantage of?
    Mr. Stilwell. Thank you, Senator.
    I absolutely share your concern in that regard, and 
therefore, you will understand I have spent, of my 2 1/2 months 
on the job, a considerable amount of that time working at my 
level with counterparts to, again, address both--the concerns 
on both sides of the Tsugaro Straits there. And, you know, as 
far as actions, the Secretary has met with both sides, 
trilaterally, 3-8 times; this--the President, twice, most 
recently at the East Asia Summit. We held another trilateral 
meeting in early August, endeavoring to get both sides to 
approach this just--you know, this problem from a very positive 
and productive standpoint. So, we are actively engaged. Because 
that activity may not be visible publicly, it does not mean it 
is not happening. So.
    The Chairman. Senator Menendez, I think your question 
regarding suspension of sales of those really deserves a more 
looking at, and particularly if the British have done it. I 
mean, they would know what is going on in there more than--
better than we would. So, I--we probably ought to take a look 
at that. I--are you aware of any that are pending right now, or 
is it an ongoing sale----
    Senator Menendez. It is an ongoing sort of sale, so----
    The Chairman. I think we ought to be take a look at that. I 
think that is an excellent suggestion. Thanks so much.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Secretary Stilwell, for your testimony today and 
joining us. Look forward to having you before the East Asia 
Subcommittee in the near future.
    Just wanted to talk about the work that you have identified 
in your statement. Many of the actions you have cited as taken 
toward Asia came out of the Asia Reassurance Initiative Act 
that this committee passed last Congress that was signed into 
law on New Year's Eve. In fact, the appropriations bill that 
just came out of the State and Foreign Operations 
Appropriations Subcommittee includes $2.5 billion for ARIA 
implementation and an additional $2.5 billion for ARIA 
implementation. And I urge my colleagues to support that 
because of the work that we did in a bipartisan fashion on this 
committee. There is a lot of work we can do on national 
security, a lot of work we could do on economic opportunity, 
and, of course, human rights, democracy, rule of law, with the 
dollars now being appropriated to fully implement ARIA.
    Going to Hong Kong and the point that Senator Menendez, 
Senator Risch were making, it--the Defense Authorization Act, 
the Senate passed a Sense of Congress Resolution on July 28th 
that required and states, ``The United States shall impose 
financial sanctions, visa bans, and other punitive economic 
measures against all individuals and entities violating the 
fundamental human rights and freedoms of the people of Hong 
Kong.'' So, my question is, Does the administration plan--or 
have plans to impose financial sanctions, visa bans, and other 
punitive measures against individuals and entities violating 
the fundamental human rights and freedoms of the people of Hong 
Kong?
    Mr. Stilwell. Thank you, Senator.
    I will address your first question, on ARIA. I will not 
talk about BUILD this time. Great to have a law and a strategy 
that actually overlap and align. So, thank you and your 
colleagues for your support in that, in making, you know, the 
Indo-Pacific Strategy a reality. Because, certainly, it 
requires resources.
    On your second question, Senator I am aware of--there are a 
number of policy options, there is a number of legal options 
for dealing with these things. This has been going on for 100 
days, as has--passed an anniversary. If--take--my response is 
that we take this extremely seriously. In all interactions that 
I have been in with the Secretary on this subject, with his 
counterparts, this has come up prominently and strong advice to 
resolve this through dialogue, peacefully, simply listen to 
what the protesters are asking. And I do believe that you have 
seen positive motion in that regard, from Carrie Lam and the 
others. So, as far as identifying individuals and then taking 
action--certainly take that under advisement and we will 
continue to watch that. But----
    Senator Gardner. But, no action is planned right now.
    Mr. Stilwell. Senator, I have no information on that 
regard.
    Senator Gardner. Thank you.
    On Taiwan--well, Taiwan lost another diplomatically, the 
Solomon Islands, this past week. On September 6th, as news was 
breaking about this possibility, I sent a letter--a private 
letter to the Prime Minister of Solomon Islands, asking him to 
reconsider the decision, to engage in a dialogue with the 
United States regarding Taiwan as a global partner in the 
Communist Party of China, the threat that it poses. We did not 
receive a response, and obviously we know the action Solomon 
Islands has taken. What--as a result, we have introduced a bill 
called the Taipei Act, which would require the administration 
to develop diplomatic plans to help protect and preserve 
Taiwan's global leadership, diplomatic allies, and 
opportunities. What has the administration done to prevent this 
kind of action from taking place, again losing additional 
support? And what other nations are considering these actions?
    Mr. Stilwell. Thank you, Senator.
    I guess I can point to actual actions taken. And that would 
be the Secretary's trip to Micronesia. I got to join him on 
that. And the simple act of being visible in the region, I do 
think--not in this particular case, with Solomon Islands, but, 
in general--gives us something to point to, and it certainly 
reinforces and reassures the region that the U.S. is 
interested.
    As far as the, again, Taipei Act, I completely support the 
notion of--you know, this falls in line with Taiwan Relations 
Act and the six assurances, and those things that were designed 
to prevent this exact thing from happening, prevent Taiwan from 
its international space being squeezed. And so----

 Response Received From Hon. David Stilwell to the Take-Back Question 
                    Submitted by Senator Cory Garner

    Question. Does the administration support the Taipei Act?

    Answer. The Taiwan Allies International Protection and Enhancement 
Initiative (TAIPEI) Act of 2018 is evidence of Congressional interest 
in strengthening Taiwan's standing in the world and comes in response 
to increased Chinese pressure to marginalize Taiwan's international 
space. I am concerned with Beijing paying off leaders to end their 
country's relationship with Taiwan and shirking this international 
space. We recognize that Congress wants to demonstrate its continued 
support for Taiwan's participation in the international community--a 
reflection of the strong belief that it is a democratic success story, 
a reliable partner, and a force for good in the world. The 
administration shares this desire and the commitment to Taiwan's 
participation in the international community. Along with other relevant 
U.S. government departments and agencies, we are studying this proposed 
piece of legislation with interest.


    Senator Gardner. Thank you. And I am running out of time, 
here. On ARIA, Asia Reassurance Initiative Act, just mentioned, 
you have talked about how it has informed some of the actions 
you have taken. I would like to learn more about how it was 
received in the region, what people are saying about it. We can 
get to that later. But, I am concerned about several reports 
that are overdue under ARIA right now, pursuant to sections 
205, 214, 305, and 306. Those reports are now overdue, and 
would love to see those reports completed.
    When it comes to North Korea, could you give us an 
indication right now of what you believe North Korea's nuclear 
production is?
    Mr. Stilwell. Senator, I cannot----
    Senator Gardner. Are they still--they are still producing 
nuclear weapons?
    Mr. Stilwell. I assume they are, yes.

 Response Received From Hon. David Stilwell to the Take-Back Question 
                    Submitted by Senator Cory Garner

    Question. Do we know how many nuclear productions--nuclear weapons?

    Answer. The State Department will arrange a classified briefing on 
this topic to provide additional information.


    Senator Gardner. And maximum pressure--the doctrine of 
maximum pressure is still our policy toward North Korea?
    Mr. Stilwell. Senator, as far as I know, that is true, yes.
    Senator Gardner. And do you believe that any sanctions 
against North Korea should be lifted until they--or that no 
sanctions should be lifted until they demonstrate a commitment 
toward complete, verifiable, irreversible denuclearization?
    Mr. Stilwell. Senator, the policy is still for full, 
verified denuclearization, absolutely.
    Senator Gardner. And full, verified denuclearization is the 
same as complete, verifiable, irreversible denuclearization?
    Mr. Stilwell. Sure. Yes.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Thank you, Secretary Stilwell. I think this point that 
Senator Gardner just raised regarding the Solomon Islands 
really needs to be looked at. I think that is the canary in the 
mine. We all know--I think--I do not think the American people 
are fully appreciative of how widespread China's influence is 
around the world. They are in every country. Solomon Islands, 
you would not think would be much, but there they are. And they 
spend a lot of money. And money influences people, and that has 
an effect on whether they are going to stay recognizing Taiwan, 
or not. So, I think we are going to need to develop a strategy 
on that. We certainly cannot match their spending, inasmuch 
as--you know, we, being a capitalist country, the capital is 
controlled by the private sectors. In China, if they want to 
spend money on another country--and they are, all over the 
world--they do it, and they do it easily, and they do not have 
to go to anybody to get permission. So, I think this is a--I 
think that is a really important point that you raised, Senator 
Gardner.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And, Secretary Stilwell, thank you very much for your 
service, and thank you for being here. This is a critically 
important hearing.
    And I am going to start with Hong Kong. You have already 
been questioned in regards to the use of control--crowd-control 
devices and military-type sales to China and Hong Kong. I want 
to make this a little bit broader. It is clear we have seen, in 
the last year to 2 years, a crackdown on human rights by the 
Chinese government's influence in Hong Kong affecting its 
autonomy. I think that is a factually indisputable point. When 
we passed the 1992 U.S.-Hong Kong Policy Act, which gave 
special status to Hong Kong, different than mainland China, we 
did that and said, ``as long as they adopt international 
standards''--Hong Kong. And we gave the President the power to 
adjust the benefits if there is less autonomy within Hong Kong 
itself.
    It seems to me that it is pretty clear there is less 
autonomy today than there was anticipated to be by this time. 
We were supposed to have independent elections. We have not had 
that. We have had the protesters harassed and put in jeopardy. 
Does the administration have a process where they will use the 
direction given by Congress in 1992 to leverage that for a 
change in direction by Chinese influence over Hong Kong, or, if 
that is not achieved, to take specific action that could affect 
the status of Hong Kong?
    Mr. Stilwell. Senator, thanks for that question. And it is 
difficult to nail down exactly one aspect of that, or one area 
we can push on.
    I would say that, you know, I am fully aware of the Act, 
and we have been in long discussion on its implementation, the 
impacts on both the U.S. and on China, you know, if, you know, 
the implementation takes place. And there has been a very 
fulsome discussion. So, as far as your question on whether 
there is activity or a process, we are deeply--you know, we are 
engaged on this one.
    The--I am going to keep pointing back to the ability for 
the protesters to make changes. I would say withdrawing the 
Extradition Act is a very positive step, and----
    Senator Cardin. Of course, it never should have been 
introduced in the first place, but I hear you.
    Mr. Stilwell. And they were able to, through a democratic 
process, through their own voice and through, you know, large 
exertion, push back on what seemed to be a done deal. And so, 
as far as autonomy, I would say that it is, essentially, still 
autonomous. You know, these are gradations, gray areas, and we 
will continue to discuss this. And we would be happy to get 
back with you on that.
    [The information referred to follows:]

    The Committee Received No Responses From Mr. Stilwell for the 
Following Questions

    Does the administration have a process where they will use the 
direction given by Congress in 1992 to leverage that for a change in 
direction by Chinese influence over Hong Kong, or, if that is not 
achieved, to take specific action that could affect the status of Hong 
Kong?


    Senator Cardin. So, we are going to be stronger if the 
administration and Congress works together.
    Mr. Stilwell. Absolutely.
    Senator Cardin. And that is why I would urge you to have 
open discussions with us--it can be in a closed setting that is 
fine--so that we are all on the same page as to how you are 
using the strategies.
    I remember when I first introduced the Magnitsky statute 
and ran into resistance from an administration--not this 
administration--that said, ``Why are you bothering with what we 
do?'' In the end, I think everyone would acknowledge, including 
the administration, that Congress acting gave the 
administration more strength to advance our interest.
    Senator Rubio and I have introduced legislation, in regards 
to Hong Kong, that would require certain reports annually to 
Congress on the status of autonomy in Hong Kong. I would urge 
you that that would help you, because then you could explain to 
the stakeholders that you have to report to Congress, so that 
you do not have total discretion here, which gives you a 
stronger hand in an effort to bring about the proper conditions 
in Hong Kong.
    So, I would just urge you to work with us so we can achieve 
what was anticipated in 1992, because, quite frankly, I think 
we have seen, in the recent years, trends that have us 
extremely concerned. And I admit there have been victories, but 
we should be making progress, not just preventing negative 
things from happening.
    Mr. Stilwell. Senator, I appreciate that. And, you know, I 
was up here 2 days last week, having these conversations with 
both the House and the Senate side, and I will continue to do 
that.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cardin.
    Senator Romney.
    Senator Romney. Secretary Stilwell, thank you for joining 
us today.
    It is my view that the greatest threat to freedom for 
America and for the world is a China that decides to try and 
impose its authoritarian system on the world, that it is our 
highest priority to dissuade China from that course, or to 
confront them, if necessary, to prevent them from taking that 
course. Do you agree with that?
    Mr. Stilwell. Senator, absolutely.
    Senator Romney. I would note that, as the leader of the 
free world, that really falls on us to bring the free world 
together to make sure that we are able to dissuade China from 
taking that path and threatening our freedom and the freedom of 
the world.
    They have developed, quite clearly, a strategy. You 
mentioned the difference between strategy and policy. I worked 
many years in a strategy consulting firm, helping companies 
think about strategy. And I look at what they have done, and I 
say, ``Wow, this is one of the most brilliant strategies I have 
ever seen.'' The Belt and Road means that they are going to 
have access to key raw materials, they are able to also send 
their products out. Predatory pricing and industrial policies 
allow their industries to take over industries around the world 
on an unfair basis, basically managing and brainwashing their 
own citizens. And, then, of course, an influence campaign 
around the world, with things like the Confucius Institutes, 
here in our country, where we are trying to tell schoolchildren 
a whole different message about authoritarianism and China. And 
it is my hope that we, as a Nation, will finally develop a true 
strategy as it relates to this highest priority in preserving 
our freedom.
    But, one question in my mind is, what would the key 
elements be of such a strategy? What are key our advantages? 
What are--from your perspective, what do we have to have as the 
central part of a strategy to dissuade China from imposing its 
will on the world, or to confront them when they do? Do you 
have a sense of that, of things that you think make sense to be 
part of that?
    Mr. Stilwell. Senator, absolutely. I really appreciate that 
question.
    The Indo-Pacific Strategy addresses those terms, those 
things. The obvious one is security. I mean, if you do not have 
stable, you know, air and maritime lanes, you--your ability to 
trade is affected. China looks to a--you know, change that 
equation, especially in the South China Sea. So, security leg 
of the strategy is important, but it is also the one we know 
best.
    The second one is economics, looking at things like 
infrastructure, energy, digital economy, these things that 
address exactly what you mentioned, in One Belt, One Road.
    And then, as I mentioned before, governance. And it is 
about, you know, transparency. The difference between open 
democratic systems and the system that your--you have mentioned 
is the fact that one is very opaque, and they really do not 
want you to see what is going on in the background. And so, one 
of my goals in this job is to work more closely with groups 
like the Global Engagement Center and others to--and expose 
these things, make them obvious to everybody. And once people 
see that, and once you open this up, this is what Australian 
John Garnaut talks about, casting sunlight on these problems. 
They tend to go away on their own. An example would be, maybe, 
Malaysia's election in--bringing Mahathir into power, where it 
became clear that One Belt, One Road and these things were not 
quite what they seemed, that maybe there was some elite capture 
and some deals going on that they did not want the electorate 
to see. When exposed, it resulted in a different--a change of 
leadership.
    Senator Romney. I would note, from my perspective as well, 
that one of the key elements, perhaps the key element, as it 
relates to a strategy is that we have friends, and they tend 
not to have friends. And that linking with our friends and 
allies to confront their scale, the sheer scale of their 
population means that their economy will be enormous at some 
point, and that it--that tying closer to our friends is 
essential to the preservation of freedom. As Ranking Member 
Menendez mentioned, just the fact that we have two friends in 
the area that are confronting one another is not in our 
interest. We very much want to have close relations, economic 
relations with other nations in the world, military 
coordination, and so forth. My impression is that the 
administration seems to be pushing away the world. And when we 
talk about ``America First,'' that we are giving a message that 
somehow we do not care about the rest of the world. I know that 
is not going to be your point of view. But, is it not very much 
in our interest to draw in the world, to get closer, 
economically, to perhaps, yeah, put pressure on China with 
tariffs on China or other economic sanctions, as needed, but 
that we should be doing just the opposite with the rest of the 
world, which is drawing in our friends, getting as close as we 
possibly can so that we can have the economic and political 
might to dissuade a very authoritarian regime?
    Mr. Stilwell. Senator, thanks for that. That is a great 
point.
    So, I will point to the--you were talking about economics 
and allies--we will point to the recent conclusion, of course, 
our bilateral trade--free-trade agreement with the Koreans and, 
hopefully soon, a similar free-trade agreement with Japan and 
other allies in the region, doing what we can, at least 
bilaterally, to ensure, you know, prosperity for both. Those 
things, as you mentioned earlier--you know, the lack of allies 
and partners on the Chinese side is a--you know, it is a--it is 
to their detriment. And it has to do with like-mindedness.
    And so, you know, I was just recently in Australia with the 
Secretary. That relationship is going very well. We are--Prime 
Minister will be here this week. It--we also have been to 
Bangkok. I have been to Thailand twice in--since I have been 
here, working that relationship positively. And, you know, I 
share your concern about making sure that our allies and 
partners are onboard.
    Senator Romney. Thank you.
    Mr. Chairman, let me just note that I will be submitting 
for the markup later today a proposal to commit us to working 
with allies and partners both in the Asia-Pacific region and 
Europe to come up with a common policy to address the 
challenges we face from the rise of Asia. And I will be hoping 
to get some support from members of the committee.
    The Chairman. Thank you, Senator Romney.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Assistant Secretary Stilwell, thank you for being here.
    I want to change the subject. My home State of New 
Hampshire has one of the highest overdose death rates in the 
country based on the opioid epidemic. The highest percentage of 
those deaths are the result of fentanyl. And the vast majority 
of fentanyl that comes into the United States comes in from 
China. And, despite previous agreements with the United States 
and China, between the two countries, China said, earlier this 
month, that it has had only limited cooperation with the United 
States on reducing the illegal import of fentanyl into America. 
So, do you agree with the Chinese government assessment? And 
can you talk more specifically to what we are doing to try and 
encourage China to work with us to keep fentanyl out of this 
country?
    Mr. Stilwell. Senator, thank you for that.
    And yes, I do agree that more can be done in the PRC to 
manage this problem. One of the statements they make is that, 
``We do not have a drug problem in China.'' And yet, we do know 
that that drug is making it into our own country. So, if they 
would apply those same standards domestically as they do when 
it leaves the country, that would certainly help.
    I know the administration, before I came in, brought down a 
policy that allowed China the ability to use our Postal Service 
at rates, you know, preferential. I do think that also helped, 
as well. But, I think--and I know the--both working together--
this is another issue that both the administration and the 
Congress share its concern and activity. I note Senator Rubio 
praised the passage of the Fentanyl Sanctions Act, holding 
China accountable for its part in allowing this tragedy to 
continue.
    Senator Shaheen. You did not mention what more we are doing 
to try and get China to comply with the agreements that we 
have----
    Mr. Stilwell. Senator, you have my full commitment to raise 
this in every setting with them. I also know that they are--in 
the negotiations through another agency, that they have 
convinced the Chinese to tighten up their scheduling activity. 
And so, variations of fentanyl do not continue to make their 
way in under some guise of, ``That is not the one we were 
looking for.'' And so, I--there is positive action, but I will 
continue to raise that.
    Senator Shaheen. I would urge you and the State Department 
to do everything possible to try and keep fentanyl out.
    And you mentioned the Postal Service. We know much of that 
fentanyl comes in through the Postal Service. And yet, this 
administration has threatened to withdraw from the Universal 
Postal Union, which would be detrimental to our efforts to try 
and keep fentanyl out of this country. Can you tell me why the 
administration is planning to do that, and what we can do to 
try and urge that you reconsider that decision?
    Mr. Stilwell. Senator, thank you for that question.
    I am not going to do this all the time, but I will plead 
ignorance on this one. And I have spent half of my time in the 
job downrange in the region, and my opportunities to actually 
study up on all issues has been limited. But, I will take that 
one for----
    [The information referred to follows:]

    The Committee Received No Responses From Mr. Stilwell for the 
Following Questions

    Can you tell me why the administration is planning to do that, and 
what we can do to try and urge that you reconsider that decision?


    Senator Shaheen. Thank you. We will make sure we send a 
follow-up question and ask you to respond to it.
    In 2017, the Federal Retirement Thrift Investment Board 
announced it would broaden the I Fund to include China and 
other emerging markets. Senator Rubio and I have sent a letter 
to the Board expressing our concern about this change. It will 
come into force in 2020, and we believe it puts at significant 
risk nearly 50 billion in Federal Government employee 
retirement assets, and that it undermines U.S. economic and 
national security interests, because those dollars could go to 
China for many of its activities that are not consistent with 
our democracy and our values. So, given the Chinese companies' 
lack of transparency and clear ties to the government, do you 
think this is something that the Thrift Savings Investment 
Board should reconsider? And has the State Department weighed 
in on this, or has the administration weighed on--weighed in on 
this in any way?
    Mr. Stilwell. Yeah, thanks, Senator.
    Always conscious of staying in my lane, I share your 
concerns about transparency, as I mentioned earlier, in 
governance, the ability to understand how decisions are taken, 
and certainly in economics. Anytime you invest, you want to 
know what you are investing in, and you want to know how those 
investments are being managed. And so, I will look into that. 
But, again, I do not want to speak out of turn.
    Senator Shaheen. Well, thank you. And I appreciate the 
concern about staying in your own lane. I would argue that one 
of the challenges we have in the Federal Government is that we 
do not have enough interagency communication and cooperation as 
we address these issues, and that a broader strategy that 
includes everybody as we are thinking about these--everybody 
relevant within the government as we are thinking about some of 
these decisions would be a better approach, because it would 
mean we could be more effective.
    So, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Shaheen.
    Senator Coons.
    Senator Coons. Thank you, Chairman Risch and Ranking Member 
Menendez, for organizing this hearing.
    And thank you, Assistant Secretary Stilwell, for sharing 
your expertise and your views with us today. I appreciate your 
efforts to communicate with us, and I think we have already 
built up a significant list of questions where we are looking 
forward to your response about the administration's views on 
key pieces of legislation, the administration's actions with 
regards to fentanyl, with trade, with human rights, with quite 
a few issues. And so, I will add one more to that pile, if I 
might.
    First, broadly, I do think it is critical we work to 
reinforce our alliances in the region and reassure our 
partners, the U.S. remains committed to the Indo-Pacific. And, 
while our military presence in South Korea, Japan, elsewhere 
throughout the region, is critical, we also need diplomatic and 
economic tools to show the U.S. is, indeed, a Pacific power. In 
your testimony, you referenced infrastructure, energy, and 
digital as three key lynchpins to our efforts in the region, 
and initiatives to try and increase private-sector investment 
and to utilize initiatives like JUMPP, investments in 
transparency, the new Transaction Advisory Board. And it was in 
your written testimony, you referenced the One Belt, One Road 
effort by China as a way that they are undermining, in some 
ways, the sovereignty, the autonomy of nations throughout the 
whole region, and concerns that we share about transparency, 
responsible lending, and sustainable environmental practices. 
As you know, I am sure, many of us worked together on this 
committee and with the administration to get the BUILD Act 
passed and signed into law last year. It creates a 21st-century 
Development Finance Corporation, which is about to launch, that 
will bring greater scope and scale to American efforts to 
mobilize private capital, to boost economic development. And it 
is my hope that it will be a genuine Development Finance 
Corporation that will also tackle these questions and present a 
competing model of transparency and sustainability.
    I would be interested in hearing, in the many trips that 
you have been making to the region and that the Secretary has 
made, what are you doing to help engage and educate governments 
in the region about these new U.S. tools? In trips I took to 
Japan and South Korea earlier this year, I made a point of 
talking with both the leaders of their domestic development 
finance agencies and with their leaders about this. How do you 
see us using this tool, going forward?
    Mr. Stilwell. Senator, thank you very much for that.
    Let me start off by noting--certainly share your concerns 
about getting at the infrastructure question in the region. And 
I will speak to the Indo-Pacific, certainly my part of the 
world. We have seen other infrastructure programs from other 
countries have had--have been popular. I do think there has 
been, and will be increasingly, buyer's remorse for One Belt, 
One Road projects. At the same time, and not necessarily tied 
to that, you have seen an increased interest in taking 
advantage of the economic and investment benefits that come 
from developing infrastructure where it is needed. And we know, 
off the top of my head, it is something like $27 trillion of 
infrastructure need, and yet there is 70 trillion of capital 
looking for places to invest, looking for solid investments, 
looking for investments that will pay off, vice these projects 
we have seen, bridges to nowhere and other things. And so, the 
fact that an old fighter pilot can actually say that with some 
fluency tells you that I am, you know, getting up on the step 
on this one.
    But, I would like to point to the--a part of that, the 
upcoming Indo-Pacific Business Forum that is going to happen in 
Bangkok on the 4th of November, on the sidelines of the East 
Asia Summit, where we are encouraging CEOs, Congress, and other 
U.S. leaders to come share their ideas, opportunities, 
information with these countries to make sure they understand 
there is not just one choice--it is not just this one project, 
this one system--but there is a great opportunity to use, not 
just the U.S.--and we have been talking allies and partners--
you know, Japan has been very active in this region--Korea, 
Australia, others. And so, the strength in this process as it 
continues to mature is--it is going to be very broad and give 
these countries choices that they, right now, do not have.
    Senator Coons. Well, I have spent a significant amount of 
time, in my early years here, focusing on Africa. The 
difference, in terms of infrastructure investment and 
engagement in Africa, in particular, is just stunning. And in 
the Indo-Pacific, I really hope the administration will work 
closely with our regional allies--Australia, the South Koreans, 
the Japanese, as you mentioned--as well as our European 
allies--the Scandinavians, U.K., and French--and move quickly. 
Because this new capacity should be up and running in a matter 
of a month or two. I have met with the nominee we are 
considering soon to run it, who I think can be quite capable, 
agile. And, with these new resources, we should be able to put 
on the world stage a competing model for how to do development 
in a responsible and transparent way. I very much look forward 
to working with you on it, and look forward to hearing from you 
how you think we might be able to be constructive in 
accelerating the deployment of this new tool.
    Thank you.
    Mr. Stilwell. Senator, thank you.
    The Chairman. Thank you very much.
    Senator Merkley.
    Senator Merkley. So pleased to have you with us.
    So, the administration has been relatively silent on the 
genocide in Burma regarding the Rohingya, and reportedly 
because of concern about driving Burma closer to China. But, 
does that silence, or near silence, on genocide in Burma 
undermine USA credibility as a champion of human rights, in 
general?
    Mr. Stilwell. Senator, I appreciate your question.
    We have had lots of discussions on this topic. There has 
been action taken. I think you--aware that we have sanctioned, 
you know, all military officials and their families subject to 
visa restrictions through the JADE Act. There has been GLOMAG 
activity, as well. This is clearly a--you know, of high 
interest to this administration, and it will continue to be as 
we work with Burma to help them understand the importance of, 
you know, democratic principles that we all share. And so, I 
will continue to work that.
    I have yet to get to Burma in my travels, but it is on the 
list. And so, again, I look forward to getting to interact 
personally and share this message.
    Senator Merkley. Thank you. I really encourage you to speak 
out forcefully, because we were very late to doing any sort of 
sanctions on Burma after much of the international community 
acted. President of the United States has never spoken publicly 
condemning the genocide. And it has given a lot of interest to 
others around the world that they can get away with severe, 
horrific action against minorities without the U.S. raising its 
voice in a powerful way. So, I would love to see us, even at 
this point, speak out. And we are 2 years past.
    The Senate passed, last week, the Uyghur Human Rights Act. 
And the administration has been independently, reportedly, 
considering visa bans against Xinjiang officials because of the 
treatment of Uyghurs under the Global Magnitsky Act. Do you see 
the administration acting quickly to highlight and use Global 
Magnitsky Act in regard to the Xinjiang officials who are, 
basically, treating a population almost like slaves?
    Mr. Stilwell. Senator, I appreciate that perspective. And 
yes, the conditions, the activities in Xinjiang are of great 
concern. And it, certainly to me, the administration, and to 
the world, you are seeing--the Australians have definitely 
taken this one up, a documentary--and this is coming out of 
nongovernment--on the--you know, what they could find on this. 
If--you know, my concern is, if there is nothing bad happening 
in Xinjiang, why is it so difficult to get out there and see 
it? You know, why cannot--if there is nothing wrong, we should 
be able to travel there on our own and go see for ourselves. I 
got to travel there when I was the Defense Attache, and the 
security environment was eye-watering. And there are issues 
there. And it has to do, again, with the interpretation of what 
constitute human rights. And so, we will continue to work with 
our counterparts. And we have opportunity, coming up here next 
week, at the General Assembly and others, and we will raise 
this.
    Senator Merkley. I think it would be great to hear the U.S. 
raise it. The--we keep hearing that the administration is 
delaying action because they do not want it as a factor during 
the trade negotiations with China. But, I think, for the 
administration to really delay acting sends another message 
that we are abdicating leadership on human rights. The Senate 
has acted and passed the Uyghur Human Rights Act last week. And 
it includes my amendment that says there will be Magnitsky 
sanctions unless China provides independent human rights 
monitors, with unfettered access. And I would love to see the 
administration get behind that vision.
    I want to turn to the Hong Kong Human Rights and Democracy 
Act. We did not get a very clear answer when it was raised by 
my colleague, but I thought I would mention a couple of the key 
provisions and see if the administration supports them.
    One is to assess whether China has an eroded Hong Kong 
civil liberties, as protected by the Hong Kong's Basic Law. 
Would you and the administration support such an assessment?
    Mr. Stilwell. Senator, it would definitely support a 
conversation on--you know, and we are, ongoing, assessing and 
evaluating the current status, in accordance with the Human 
Rights Democracy and as well as the Hong Kong Policy Act.

 Response Received From Hon. David Stilwell to the Take-Back Question 
                   Submitted by Senator Jeff Merkley

    Question. A second provision allows Hong Kong residents to work and 
study in the U.S. if individuals have been arrested for participating 
in a nonviolent protest. Is that a provision the administration would 
support?

    Answer. Educational and cultural exchanges between the United 
States and Hong Kong remain a core element of the relationship. We have 
also been explicit in expressing our continued support for human rights 
and fundamental freedoms in Hong Kong, including the freedoms of 
expression and peaceful assembly, as enshrined in the Basic Law and 
Sino-British Joint Declaration. Being arrested for participation in a 
nonviolent protest, in itself, would not preclude visa issuance under 
the Immigration and Nationality Act.


    Senator Merkley. A third provision is that the President 
report to Congress a list of individuals responsible for 
abducting, torturing people exercising internationally 
recognized human rights in Hong Kong, and banning such 
individuals from entering the U.S., and imposing sanctions on 
them. Would the administration support that provision?
    Mr. Stilwell. Senator, I am--offer you the same answer on 
that. I do not want to get out ahead of the administration. As 
I said, this subject has come up--you know, in my interaction 
with the Secretary, has come up at every opportunity, in strong 
words, to discourage further negative actions in Hong Kong. The 
President has been very clear, as well, on insisting on a 
humane resolution and the rest. So, I--yeah, the--we share your 
concern.
    Senator Merkley. A fourth provision--this is the last one, 
Mr. Chairman--is a report--requiring a report on the evasion of 
sanctions that China would--is required, through U.N. 
resolutions, to put on sanctions or export controls using Hong 
Kong to evade actually applying those, including as it applies 
to North Korea. I will just note that this is a significant 
issue of Hong Kong being used to allow China to not enforce 
sanctions and export controls.
    I would love to see the administration take a very strong 
stand on all three of these areas, with Burma, with the 
Uyghurs, and with Hong Kong.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Welcome. Thank you for your testimony today.
    This week, there were very concerning reports that the 
Solomon Islands plan to sever their ties with Taiwan, in favor 
of China. What message do you think this sends to the region? 
And what can the U.S. do to help prevent our allies from 
succumbing to economic or military pressure exerted by the PRC?
    Mr. Stilwell. Senator, thanks for that question.
    The late-breaking news on that is--was unfortunate, and, 
you know, it is part of a larger strategy to slowly squeeze 
Taiwan's international space. And, you know, this is why there 
is a Taiwan's Relations Act. This is why I am very familiar 
with it and will insist that we continue to abide by that, in 
addition to, you know, agreements such as the Third Communique, 
which indicates that, in order to resolve this issue through 
dialogue and peacefully, as we all agreed to do, that there--
you know, there are certain things we are going to have to do. 
Arms sales. As you note, about $10 billion of arms sales in 
2019 alone, in a--of a defensive nature, to ensure that Hong 
Kong--or that Taiwan has the opportunity to negotiate and 
dialogue with the PRC.
    So, as far as protecting its international space, again, we 
are very actively involved that--as I mentioned earlier, the 
Secretary stopped through the--Micronesia. You know, that is a 
hard stop to make, and we still went out there to demonstrate 
U.S. concern, interest, and commitment in the area.
    Senator Cruz. The 2017 U.S. National Security Strategy 
describes China as a, quote, ``competitor.'' The 2018 National 
Defense Strategy refers to China as a ``strategic competitor.'' 
And then the 2019 intelligence strategy puts China in the 
category of ``adversaries.'' What is the intended implications, 
if any, of these various labels? And how do you view China, 
going forward?
    Mr. Stilwell. Senator, as you know, words matter. As I said 
previously, that we need to choose them very carefully. In my 
mind, especially with regard to ensuring that we are talking 
about the Communist Party and not the people. But, in this 
case, I think ``strategic competitor'' has the right flavor. 
You know, from my time in Beijing, 8 years ago, we were hoping 
that we would come to that realization sooner than later. The--
I am not going to parse words on the Intel report. I am not 
sure of its authoritativeness. But, the point is that the U.S. 
administration, the Congress, have all come to the conclusion 
that this thing--we need to, kind of, get busy and take active 
steps to deal with this thing. And, as mentioned earlier, 
allies, partners--presence, visibility, and, again, all the 
things the administration has done to date, I think, address 
this.
    Senator Cruz. Now, China is, of course, investing billions 
in the Belt and Road Initiative, is also actively promoting 
espionage, and is also pushing Huawei to build the 
infrastructure of 5G, along with the capacity of China, to 
monitor and intercept communications among our allies. What is 
your assessment of how effective what China is doing on each of 
those fronts? And what more should we be doing to press back?
    Mr. Stilwell. Senator, I think one of the great aspects of, 
you know, our country and our system and the system and the--
that our like-minded allies and partners share is, we are 
comparatively slow to anger. We tend to give the benefit of the 
doubt. And so, I think we have been hopeful that the Chinese, 
you know, cyber strategy would be resolved. And we have been 
talking about this for years. This is not just in the last 3 
years, but trying to get at China's intent with using cyber to 
its own benefit.
    In the case of Huawei, now, we have finally come to 
realize--and we are trying to encourage others to admit and 
understand--that the systems here are under the direct control 
of the Chinese government. They have laws that say that Chinese 
companies will release information, you know, at the Chinese 
government's direction. And so, the fact that it is in this--we 
are talking about it in this hearing says, I think, it has 
achieved that level of awareness. Others are aware of the 
problem. And--you know, and we will continue to work on 
offering alternatives, pushing other--you know, people want 
better technology, and I think we need to help get to that.
    Senator Cruz. So, one final question. Washington has 
believed, for decades that we could change China into a friend 
by trading with them. And yet, we are seeing evidence that at 
least some of the reverse is playing out, that China is 
changing the behavior of American companies. So, multiple U.S. 
airlines designated Taiwan as a Chinese province in order to 
maintain access to China. Google began development of Project 
Dragonfly, a search engine compliant with the great firewall 
censorship requirements. Apple has located iCloud servers in 
China, in cooperation with the Chinese state-owned enterprise. 
And Thermo Fischer has exported AI technology for, quote, ``law 
enforcement purposes'' in China.
    How should the United States think through a framework for 
economic cooperation when we are seeing American companies 
being coopted into helping the communist government maintain 
power and maintain oppression?
    Mr. Stilwell. Sir, that is a great question.
    There is plenty that the government can do. But, in the 
end, you know, there is a business model, here, that looked too 
good to be true and is quickly being understood to be not all 
that it appears to be. And so, you are seeing businesses 
recognize this as they now look for other places, both as 
markets and as, you know, places to do business, and they are 
leaving for other destinations where maybe labor costs are 
lower or maybe the business environment is better. And so, 
obviously, the government, certainly this administration, has 
taken pretty significant steps to help business understand the 
downside of, you know, the things that you mentioned. And you 
are seeing positive change in that regard.
    It is--it diversifies as people look at different markets 
and the rest, which I think is, economically, a healthy idea, 
rather than have it all in one place.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Thank you, Secretary Stilwell.
    Two suggestions and a question.
    So, the suggestions. Your testimony--written testimony 
contains a lot of references to the U.S. strategy of 
maintaining adherence to international law, rules, and 
standards, promoting freedom of the seas, ensuring freedom of 
navigation. On page 3, you point out, ``At the East Asia Summit 
Ministerial, the Secretary made a clear statement on China's 
bullying in the South China Sea, and urged ASEAN and China to 
move forward with a meaningful code of conduct that comports 
with UNCLOS.'' How about we just, as the United States, join 
UNCLOS? I mean, the notion that we are going to try to tell 
everybody that they should follow UNCLOS, when we are one of 
the few countries in the world that has not joined it, strikes 
me as foolish. Many administrations have tried this. Every 
current living Secretary of State, Secretary of Defense, says 
it would be a good thing for the country. We visited INDOPACOM 
in Hawaii, in April, and were told by INDOPACOM it would be a 
good thing for the country. This would be something that the 
Trump administration could do to achieve enforcement of freedom 
of the seas and others that other administrations have not been 
able to do. If the President would be forceful for it, we could 
get it done. And so, I would urge the administration to do 
something that other administrations have not been able to do. 
That could be a win, and it could achieve what you testify you 
hope to achieve.
    Second, Senator Romney asked you, ``What were the elements 
of the framework?'' And you mentioned some elements, but he 
added to it: alliances have to be key to this. Many of us hoped 
to have a Trans-Pacific Partnership that would unify us with 
other nations in the region, and serve America's interests 
there. A third of the Democrats voted for fast-track authority 
to give the President the ability to negotiate a deal. Many of 
us were disappointed with the ultimate product, on the 
enforcement side. We liked many of the substantive provisions, 
but we did not think the enforcement provisions were strong 
enough. President Trump announced he was terminating those 
discussions, and the deal has gone forward anyway, without the 
United States. But, again, if we are serious about alliances, I 
would encourage the administration to take a look at what they 
ended up with and decide what additional protections, 
enforcement or otherwise, the United States might want to get 
in. But, I think that would both cement alliances and put us 
together in a strong way to compete economically against China.
    And the third--and the question I want to ask you is this. 
And I know it was referred to before I came. The tensions 
between Korea and Japan. We were in Korea, a group of nine of 
us--Senator Portman and I were in that group--in April. And 
these are wonderful allies of the United States. We have very 
strong relationships--economic, military cooperation. But, they 
have significant tensions between them right now. The President 
is--at least publicly, reported they were trying to schedule a 
meeting with the South Korean President next week connected to 
the U.N. General Assembly. What could the U.S. do to try to 
help, you know, bring Korea and Japan closer together in this 
current political environment in those countries?
    Mr. Stilwell. Senator, thank you for that.
    I think the answer is, What has the administration done, to 
date, as we saw this process beginning to--you know, this, kind 
of, tit-for-tat begin? And, as I mentioned earlier, the 
Secretary has met trilaterally 8 times. The President has met 
trilaterally twice. As you would imagine, we--you know, we 
continue to work with both sides. I was just in Seoul, and was 
talking to Ambassador Harris about other things we can do. I 
have met with my counterparts multiple times--early August, 
especially in Bangkok, while we were all together, to encourage 
both sides just to take a pause and look at resolution versus 
continuing to express their concern. As you mentioned, these 
alliances are very important, and the trilateral nature of that 
sends a very strong message to the region.
    So, I will tell you that we will continue working and 
encouraging them both to look for positive solutions to this 
current issue.
    Senator Kaine. Thank you for your testimony.
    Senator Portman [presiding]: Thank you, Senator Kaine.
    And, Secretary Stilwell, thanks for your patience today.
    I understand that the Chair and Ranking Member are likely 
to come back after votes, so we are going to go into recess in 
a second, here, and I am going to literally run to the vote, 
but I wanted to have a chance to ask you a couple of questions 
first.
    I was at the Department of Transportation this morning. I 
missed some of your responses, but it sounds like China was 
central to many of the discussions today. And there is good 
reason for that. Whether it is the issue of North Korea or 
Taiwan or the Belt and Road expansions or what is going on in 
Hong Kong today, as we sit here, Tibet, the Uyghurs, other 
human rights issues, whether it is the cyberattacks that were 
talked about earlier, or whether it is the trade issues and the 
obvious instances of unfair trade, China is kind of in the 
middle of a lot of issues.
    One that I do not know if it got discussed yet today is the 
fentanyl problem. In Ohio, we have had an epidemic, and more 
people have died from overdoses in Ohio than any other cause of 
death in the last few years. Finally, last year we made a 
little progress. But, even within that progress, you see that 
the killer is fentanyl. It is, by far, the number-one cause of 
death. Probably two-thirds of our deaths in 2017 that we have 
been able to analyze came from fentanyl, often mixed with other 
drugs; more recently, with crystal meth, not just other 
opioids. It is coming from China. We know that. I chair the 
Permanent Subcommittee on Investigations. We did an 
investigation of this issue, and it was very clear that it 
comes through the U.S. mail system, primarily, and primarily 
from China.
    I have been there. I have spoken to Chinese officials about 
this. We passed the STOP Act, which requires them to provide 
advanced data to let our law enforcement know which packages 
are likely to be vulnerable by knowing where it is from, what 
is in it, where it is going. But, they could do much more, in 
terms of shutting down these chemical companies that illicitly 
are producing this deadly poison that is coming into our 
communities. They could do more to stop these evil scientists 
who are taking these precursors.
    So, what should we be doing on this? And are you as 
discouraged as I am about the fact that, after years of raising 
this with the Chinese, we continue to see a flow of fentanyl 
coming from China that could be stopped?
    Mr. Stilwell. Senator, I do share your concern on that. And 
there have been a number of things done. I think there is more 
that can be done to, again, stop the flow of this drug.
    There has been success in getting China to actually create 
a scheduling regime that, you know, puts drugs like fentanyl in 
a certain controlled bin, which would, in theory, prevent that 
from making it to the U.S. Unfortunately, you know, chemicals 
can morph and change, and the scheduling process has to 
acknowledge that and incorporate all of those.
    The administration has taken steps on the U.S. Postal 
Service to deny and take down China's ability to use our Postal 
Service at very inexpensive rates, and also affect the ability 
to use our own mail service to move this drug to the U.S.
    You know, this comes up in bilateral interaction. They are 
a sovereign country. I mean, in the end, there is only so much 
we can do. But, I do think that the pressure has been steady 
and continuous, and will continue over time. And you have seen 
some impact.
    On the other hand, there is--you know, by his own 
admission, the President of China says that there is no drug 
problem in China. And yet, it is coming here, which tells you 
they are--have the ability to control it, and maybe they 
should, you know, exercise more of that.
    Senator Portman. Yeah. Well, listen, I would just urge you 
to continue to raise it at every level and at every meeting. It 
seems unrelated, maybe, to some of the other issues I listed, 
but it is not, because it directly affects American citizens 
and families, and it is devastating our communities, tearing 
families apart. And we need to do more here, on the demand 
side. We are doing that, having some success. But, it is so 
cheap and so powerful, and China can, and must, do more.
    On the trade front, what we are looking for is really very 
simple. We are looking for a relationship that is grounded in 
fairness, in reciprocity, and in respect for sovereignty. And 
my thinking is, on so many of these issues where, you know, 
China is taking on, sort of, the global trading system and the 
system that has created so much prosperity around the world, it 
is China that actually has benefited from that more than any 
other country. If you think about it objectively, you know, 
they are a huge export power, they are now a major trading 
partner, and you would think they would want to work with us on 
fairness, reciprocity, and respect for sovereignty. My hope is 
that, in October, we have some good meetings, and that we are 
able to move forward. The Secretary of Transportation--or 
Secretary of Treasury and the U.S. Trade Representative, I 
know, are eager to roll up their sleeves in October and make 
something happen to get back to at least where we were in May, 
and move forward.
    Do you have any thoughts on this? Let me just give you one 
data point that I assume the Government of China knows. A 
recent study by UBS of CFOs of export-oriented manufacturers 
found that one-third of the companies in China that are foreign 
companies have moved at least some production out of China in 
2018. Another one-third of the companies in China, foreign 
investment in China, intend to do so in 2019. So, there is a 
movement out of China, in part because of the trade issues, and 
particularly the issue of intellectual property and technology 
transfer. Do you have thoughts on that, whether the Chinese 
government realizes we are seeking fairness, we are seeking 
reciprocity, and we are respecting their sovereignty, but we do 
need to see these changes, but they do, too, in order to 
continue their economic expansion?
    Mr. Stilwell. Senator, strong feelings on this one. And 
getting to see the steadfast and unblinking approach to--we 
knew this was not going to be a quick thing, right? This is not 
going go over--you know, this is the lifeblood of the Communist 
Party, is to continue a growth rate that supports its goals 
for, you know, prosperity. You know, by 2049, they want to be 
a--you know, a strong, wealthy nation. They have metrics for--
that need to be achieved by 2021 and 2049. But, those have to 
be achieved, as you say, in a way that treats both sides with 
respect, mutual benefit, and fairness. And that has been where 
we--it has been falling down. And so, I think you would agree 
that the President has taken some very strong and effective 
steps in letting the Chinese know that this sort for behavior 
is going to end, that we look for a trade partner, and we look 
for, as they say, true win-win outcomes that--where both sides 
benefit equally. So, completely share your concern.
    Senator Portman. Yeah. Secretary Stilwell, I think you can 
communicate, perhaps in a way that is different than our 
negotiators can, to China about the importance of coming to a 
resolution, and why it is in their interest, and, more broadly, 
in their interest to have the global trading system continue to 
be effective. Because they are benefiting from it more than 
anyone else. And that is fine. If it is fair, if it is 
reciprocal, we should all be able, you know, to have trade back 
and forth between our countries. But, that--to me, that UBS 
analysis that I mentioned to you, and also just the reality 
that the United States and other countries are finally at the 
point where we have had enough and we are going to have to see, 
you know, some increased fairness. In us--for us, the 301 case, 
you know, is leading these negotiations, but it is even broader 
than that for many countries around the world that are watching 
to see what happens. And my hope is, many of those countries 
will join us.
    I see my colleague, Senator Young, has joined us. Assuming 
he has voted, I will turn to you. Have you already voted?
    Senator Young. I have.
    Senator Portman. Excellent. Okay. We were going to go into 
recess during the vote, but you are here to take us through, 
so----
    Senator Young. Yeah. Thanks so much.
    Senator Portman. Yeah.
    Senator Young. I thank my colleague.
    So--and I also thank you, Assistant Secretary.
    I understand you recently visited several of our Asian 
partners and allies, and were engaged in important 
conversations related to our Nation's security, their security, 
ways that we can work together in furtherance of our mutual 
economic goals, moving forward.
    These partners and allies, one might argue, in addition to 
our own American values, which I would regard as Western 
values, are our most important asset as a country, 
geopolitically speaking. And so, it is essential, as we, sort 
of, look at the globe, that we maintain these security and 
economic relationships, as I know the administration has been 
emphasizing. Countries that border or are within, you know, 
sort of, the Southeast Asia and South Asian area are left with 
at--you know, essentially, a binary choice. They can either be 
accommodationist towards a power that increasingly is 
adventurist in its behavior, sort of revisionist with respect 
to grabbing pieces of ocean and real estate, and they have 
acted unlawfully, economically, with respect to running afoul 
of WTO rules. So, they could be accommodationist towards a 
power like that, or they can take a chance. They can take a 
chance on the United States, on what was, until recently, 
called the liberal international economic order of rules and 
norms and expectations. And much of that depends on the United 
States and the reassurance that we give our partners.
    So, I guess the question I would ask of you, Assistant 
Secretary, is, as you made your travels, were there particular 
things that our partners in the Asia-Pacific region, especially 
Southeast Asia, indicated they are seeking from the United 
States, in terms of reassurance, moving forward?
    Mr. Stilwell. Senator, that is a great question.
    You know, reassurance is the one thing--it does not cost a 
lot, and it is always in short supply. You know, every time we 
travel to either an ally, partner, or just a--you know, a 
fellow capital--one, they are very happy to see the Americans 
there. It gives them that weight, so it is not a binary choice. 
They can--you know, the word ``choice'' is interesting. We are 
allowing a--allowing them to choose their own sovereignty, vice 
to be issued a--you know, an order to say, ``You can do it this 
way or you are not--you know, you are not going to get anything 
for it.'' And so, I think, in short, the answer to your 
question is just physical presence. And it is not just me or 
the administration. I mean, certainly when Congress travels, 
you carry that same message to these capitals, and it is a 
message of reassurance, it is a calming message, and it is a 
message of like-mindedness that, you know, ``We believe your 
sovereignty is the number-one concern. We share that. We--you 
know, we share that--the interest in sovereignty and then 
giving you real choices that you can make that benefit you and 
your country.'' And this is where the idea of transparency 
really comes into play in that. Those, maybe, leaders who are 
going to make deals that they may not want their countries to--
you know, their people to see; that only works for a short 
time. And so, those who do not necessarily share those 
democratic principles will eventually, as in the case of, you 
know, recent countries--those things will come to light, and 
then they are going to have to answer for that. And so, all we 
ask is that these deals be transparent.
    And one of the programs that the administration has got is 
a transaction. It is called TAR. And it helps these countries 
look at and assess, through a legal lens, the deal they have 
been given, the contract they have been given, and look for the 
holes in it that may not comport with maintaining their 
sovereignty. So, we are certainly taking active steps in that 
regard.
    Senator Young. That is helpful. So, one of the things I 
heard is the importance of a presence. During my time in the 
Navy, we heard about the importance of naval presence. That 
extends, I think, to the economic and diplomatic realm. And we, 
in Congress--I agree, we play an important role in making sure 
that we carry the flag of the United States of America to these 
capitals, visiting world leaders, and reassure our allies and 
partners that we are with them. And then that presence needs to 
be backed with resources, where necessary--military, 
diplomatic, developmental, and so forth. And to the extent you 
can make this body aware of the particular tools, as you just 
have, that you are hearing a real need for, an appetite for in 
your travels that is very helpful, because we want to partner 
with the administration on this effort.
    So, thanks again for your presence here today.
    And I do not see the Chairman present, so we will--yeah, so 
I will unilaterally suspend the hearing, at this point.
    [Laughter.]
    Senator Young. Yeah. Irrespective of any parliamentary 
words I must utter, I hereby--I hereby suspend this hearing, 
sir. You can go take care of yourself in some private setting.
    [Laughter.]
    Senator Young. All right? Yeah. I am out of here.
    [Recess.]
    The Chairman [presiding]: Committee will come back to 
order. Thank you so much.
    As usual, we struggled through the interruption, but here 
we are.
    So, with that, Senator Menendez, the floor is yours.
    Senator Menendez. Thank you, Mr. Chairman.
    You know, Senator Young said he ``suspended'' the hearing. 
And I thought it was martial law that----
    [Laughter.]
    Senator Menendez. Anyhow. But, I am glad that the Secretary 
stayed.
    A couple of quick final questions. I remain concerned that 
the administration created the appearance that our security 
commitment to Taiwan is up for negotiation with Beijing over 
U.S.-China trade issues. Can you tell, Mr. Secretary, this 
committee now that our relationship with Taiwan is guaranteed 
by the law under the Taiwan Relations Act, it is not being used 
as a bargaining chip by the administration?
    Mr. Stilwell. Senator, I can confirm that. And nothing 
speaks louder than $10 billion in, you know, defensive weapons 
sales this year. That shows a commitment to ensuring that 
Taiwan has the ability to, you know, stand up to and negotiate 
from a position of equality and not from weakness.
    Senator Menendez. I agree with that. That is why I, from--
to the extent that my role, along with the Chairman, of 
approving arms sales, I approved that rather quickly, but then 
it was held up by the administration. And it is that holding-up 
that creates concerns for me that leads to the question. So, I 
am glad to hear you reaffirm, unequivocally, that we are not 
using Taiwan as a bargaining chip with China over other issues 
that we have.
    Let me ask you about the role--we have spent a lot of time 
with China and Japan, South Korea, and on--myriadly so, on Hong 
Kong, but several administrations have sought to deepen the 
U.S. relationship with India in order to address the rise of 
China in Asia. And, while that defense relationship has grown 
from being essentially nonexistent following the end of the 
Cold War, there are still questions about the possibilities for 
security cooperation between Washington and Delhi, which has 
roots in a historical Indian approach of nonalignment in 
foreign affairs. India's border dispute with China last year in 
Doklam helped to bolster the security partnership with the 
United States, but a lot of work, I think, remains. What do you 
see as obstacles to deeper defense cooperation between the 
United States and India? And, given these obstacles, what do 
you see as realistically possible?
    Mr. Stilwell. Senator, thank you for that question.
    And if Alice Wells, SCA, was sitting right here, I would 
certainly pass that question to her, as India is not in the EAP 
responsibility. But, I will say that--well, I met with Alice 
yesterday, and we had this conversation on doing a better job 
of stitching together East Asia Pacific and South and Central 
Asia to make sure that that black line between Bangladesh and 
Burma, between Central Asian Republics and China, and the like, 
is much less solid, that it is more gray, and that any actions 
we take are in consultation and coordinated. And so, we can get 
exactly at the point you make about, you know, bringing India 
in into the EAP region as a like-minded security provider. The 
Quad is ongoing. We are hearing lots of great things at Delhi 
on--again, participating with Japan and Australia and the U.S. 
on shared security interests.
    As far as details on the Indian military capabilities, I am 
going to have to get back to you on that.

Responses Received From Hon. David Stilwell to the Take-Back Questions 
                  Submitted by Senator Robert Menendez

    Question.  India's border dispute with China last year in Doklam 
helped to bolster the security partnership with the United States, but 
a lot of work, I think, remains. What do you see as obstacles to deeper 
defense cooperation between the United States and India? And, given 
these obstacles, what do you see as realistically possible?

    Answer. While as Assistant Secretary for the East Asian and Pacific 
Bureau I cannot comment on U.S.-India defense cooperation, I can tell 
you that India is a vital player in the overall Indo-Pacific Strategy.
    The United States and India share a comprehensive defense 
partnership and we are committed to help build India's capacity as a 
net security provider in the Indo-Pacific. India is a Major Defense 
Partner of the United States, and the 2 + 2 Ministerial Dialogue serves 
as the primary mechanism to advance security cooperation. The United 
States has offered India a wide-array of defense technologies, and we 
look forward to our first tri-service military exercise with India in 
November. We appreciate Congressional support for deepening defense 
ties with India, including the Major Defense Partner designation.


    Senator Menendez. I would appreciate that. I think it is 
hard to have an Indo-Pacific Strategy without understanding the 
Indo side of that. So, I would look forward to you giving us an 
assessment. And if it is--and I am happy for you to work with 
your colleague to give us that assessment.
    So, lastly, I want to follow up on something that our 
colleague, Senator Gardner, raised with you. As I said in my 
opening statement, we have been concerned that the Indo-Pacific 
Strategy of the administration has not been resourced. In fact, 
in the past, it has had funds cut. And I know, as an Air Force 
general--I am sure you are familiar with the adage--``You show 
me your budget, and I will tell you your strategy.'' So, we 
have been concerned that there has been rhetoric, but no 
resources that make a strategy. I do not know if you are aware 
that, in this year's foreign operations bill, the Senate 
Foreign Operations Committee has provided 2.55 billion to 
support the Indo-Pacific Strategy, an increase of about a 
billion dollars over the President's budget request, I think. I 
applaud the appropriators, in a bipartisan way, for doing that. 
I support it.
    Can I get your commitment today that you will endeavor to 
ensure that all those funds are fully expended as Congress 
directs, and that none of those funds will be subject to 
rescission or other unconstitutional or illegal withholding by 
OMB or the administration?
    Mr. Stilwell. Senator, absolutely appreciate the support 
from the Congress in making my job a lot easier, as you see the 
administration and the Congress working closely together, and 
you are seeing both--there is a bipartisan support for this--
these bills and this activity.
    I will just note that the EAP, my budget, is--been 
increased by 47 percent, as you mentioned, resourcing the 
strategy as--and helping me, and us, do a better job to support 
your direction, as well, as we coordinate with you. So, again, 
we thank you for all the legislation that supports the 
administration's Indo-Pacific Strategy and our shared desire to 
get at this problem.
    Senator Menendez. Well, I--I will tell you, Mr. Secretary, 
you have adapted well from the military regime to the State 
Department regime, which is not always very responsive. So, let 
me return to my question. And that is----
    The Chairman. I thought that was a compliment.
    [Laughter.]
    Senator Menendez. Well, I--it depends on----
    The Chairman. I started out like----
    Senator Menendez. --it depends on where you sit.
    [Laughter.]
    Senator Menendez. In any event, my key question here is 
that if we resource something, if Congress has the intent to 
say, ``This is where we want money spent,'' we need you to 
execute on it. Otherwise, then, we are resourcing a strategy 
that we, in a bipartisan way, agree, but then, to see those 
resources either not executed upon and, therefore, fall to some 
other purpose, or be redirected. If you are executing on the 
strategy, and committing the resources, then we will not fall 
into that set of circumstances. So, let me rephrase the 
question and maybe get a more direct response.
    Can I expect you to assiduously execute, once you receive 
these funds, within your lane on the issues that we are 
resourcing so that we can see them spent in a timely fashion to 
accomplish the goal?
    Mr. Stilwell. Senator, I will be a very careful steward of 
the funds provided, in accordance with the law, as directed.
    Senator Menendez. Now, ``a careful steward'' can either 
take an inordinate amount of time to execute or can execute in 
an appropriate amount of time. So, I appreciate every member of 
the executive branch being a careful steward of Congress's 
appropriations. My goal--and I am not trying to trap you into 
something, I am trying to get to--if we are actually finally 
resourcing what you need to do to execute the strategy that we 
believe, in a bipartisan way, will get us to a better position 
in the Indo-Pacific region, but it will take you to execute on 
it in a prompt--yes, efficient, and yes, steward like fashion 
as a fiduciary--but, am I going to expect that you are going to 
execute on this in a way that we will not see, at the end--if 
we see, at the end of this period of time, an excessive amount 
of money that has not been spent in pursuit of the strategy, 
then one of two things exist. Either that strategy does not 
need that much money, in which case we will have to reconsider 
it, or it's purposeful, at the end of the day, is to leave 
resources for other purposes. Can I expect you to execute on it 
in a timely fashion to assure that we achieve the goal that we 
have resourced?
    Mr. Stilwell. Senator, to the best of my ability, I will do 
that.
    Senator Menendez. All right. Thank you very much.
    The Chairman. Thank you, Senator Menendez.
    Secretary Stilwell, thank you so much for coming here today 
and giving us the benefit of your view and your testimony.
    For the information of the members, the record will remain 
open until the close of business on Friday. And we would ask 
that the witness respond as promptly as possible. And your 
responses, of course, will be made part of the record.
    So, nothing else for the good of the order, committee is 
adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Response of Hon. David Stilwell to Question 
                  Submitted by Senator James E. Risch

    Question. It is important that U.S. strategic priorities are 
reflected not only in our budgets, but also in our personnel footprint. 
Given the higher priority this administration has placed on China and 
the Indo-Pacific, what steps is the Department taking to ensure we have 
sufficient Foreign Service Officers and Civil Servants in the region? 
If the Department has not taken any such steps, why not? What 
priorities or initiatives could you better advance with more people in 
the region?

    Answer. I support the Department of State's FY 2020 request of 
onboard levels of nearly 24,700 Department USDH personnel. This level 
of staffing is needed to carry out the Department's foreign policy 
mission and meet the goals and objectives of the National Security 
Strategy and Joint Strategic Plan. This staffing level is consistent 
with the Department's current hiring plan and previous Congressional 
guidance.
    We have added new positions in the bureau of East Asia and Pacific 
Affairs to implement our Indo-Pacific Strategy and are continuing the 
process of ensuring we have adequate human resources to support the 
strategy. Moreover, the Department's public calls for diplomatic 
resources for these programs is a signal of our commitment to our vital 
interests in the region.
                               __________

             Responses of Hon. David Stilwell to Questions 
                  Submitted by Senator Robert Menendez

                        china's goals/intentions
    It seems as though there are as many opinions regarding China's 
intentions as there are analysts, with some saying it is strictly 
economic, others that China seeks to change the global system of 
governance, and still others asserting that China wants to achieve 
regional or even global hegemony.

    Question. What is your view on what China wants in the near term, 
in the long term, and why? What are--in your views--the three most 
important things the U.S. can do to protect its interests vis-a-vis 
China?

    Answer. Beijing's strategic objectives are to: 1) Resume its 
rightful place at the center of the global stage. 2) Strengthen the 
Communist Party's rule, and 3) complete its development goals by 
maintaining economic growth and technological advancement. In response 
to China's counterproductive actions, we must defend U.S. interests 
while adjusting the nature of the bilateral relationship to deal with 
negative behaviors such as intellectual property theft, forced 
technology transfers, and other market-distorting practices. To put the 
relationship in more even footing, the administration is raising the 
profile of Beijing's egregious human rights abuses in diplomatic 
engagements, maintaining tariffs on Chinese exports in order to 
encourage Beijing to end its unfair trade policies and practices, and 
supporting U.S. finance and export credit tools to mobilize private 
sector investment and promote sustainable development projects.
                     ceding u.s. influence to china
    Over the past 3 years the U.S. has retreated from its leadership 
role in the international community, providing China with an 
opportunity to expand its role on the global stage. Examples abound, 
such as the administration's decision to pull out of the Paris Climate 
agreement, the Trans-Pacific Partnership, the Iran nuclear deal, the 
Human Rights Council, and so forth, The impact of these moves has been 
twofold: it has led some of our country's closest allies to begin 
hedging their bets and decreasing the weight they give to U.S. 
preferences in their own decision-making because they view the United 
States as untrustworthy and unreliable and it has shifted attention to 
other vehicles--such as the Regional Comprehensive Economic Partnership 
(RCEP) and a TPP-11 in the economic and trade realms--in which the U.S. 
is not included. The result is that the U.S. is at a disadvantage.

    Question. How do we compete with China and how do we mitigate the 
negative effects of its rise and influence if we don't even have a seat 
at the table in these institutions and agreements, many of which we 
ourselves forged and once led?

    Answer. The United States remains the leading contributor to 
international organizations. I am confident in our ability to maintain 
the independence and values of these organizations. We recognize that 
China is seeking to reshape the international system, especially in 
multilateral development and technical/standards-setting bodies, to 
accommodate its narrow interests and authoritarian system. The United 
States is working collectively with like-minded partners and others to 
bolster international rules and norms and to share best practices in 
the face of challenges posed by China. Many of our UNGA High Level week 
engagements focused on advancing a positive U.S. agenda with our 
partners in multilateral fora and highlighting the need to expose and 
counter China's problematic behaviors consistently and publicly.

    Question. China's path may be easier for governments in developing 
countries who calculate they either don't want or can't afford to 
protect democratic institutions. What can the United States do to 
combat the erosion of democratic norms amid China's growing influence?

    Answer. In short, we need to shine a light on China's nefarious 
behavior while more consciously advocating for democratic and free 
market ideals. The United States remains a model for democracy and 
freedom for the world, especially developing countries. While China's 
authoritarian political model and state-centric development approach 
might appeal to some local political leaders, I am confident local 
populations desire the same democratic freedoms and protections as 
people everywhere. For example, while China might build an economically 
unviable stadium in Africa, the United States has long collaborated 
with nations in Africa and their people to eradicate disease, develop 
businesses, and improve educational opportunities. Efforts by any 
foreign government, including China's, to undermine the democratic 
institutions, fiscal sustainability, or national security of countries 
around the world are unacceptable. We will highlight our concerns with 
Beijing's problematic practices globally, and continue to offer 
positive alternatives through both our diplomacy, public engagement, 
and assistance efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That the current nuclear test suspension must continue, 
and that denuclearization means the dismantlement or removal of all 
nuclear weapons, facilities, technology, and material from North Korea?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea will end the production and enrichment of 
uranium and plutonium for military programs?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea will permanently dismantle and disable 
its nuclear weapons infrastructure, including test sites, all nuclear 
weapons research and development facilities, particularly with respect 
to advanced centrifuges, and nuclear weapons enrichment and 
reprocessing facilities?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea will put forward a full, complete and 
verifiable declaration of all its nuclear activities?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea has agreed to robust restrictions to 
assure that nuclear material, technology and expertise are not 
exported?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea will continue its current missile tests 
suspension, including all ballistic missiles and any space launch, and 
has agreed to the dismantlement of all ballistic missiles and a 
prohibition on all ballistic missile development?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That, like nuclear technology, North Korea has agreed to 
sufficient safeguards to assure us that no ballistic missiles and 
associated technology are proliferated or exported?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That North Korea will submit to a robust compliance 
inspections including a verification regime for its nuclear and 
ballistic missile programs, including complete access to all nuclear 
related sites and facilities with real time verification including 
``anywhere, anytime'' inspections and snap-back sanctions if North 
Korea is not in full compliance?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That any agreement is permanent in nature, with no sunsets 
on its provisions?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That progress on sanctions relief should be dependent on 
dismantlement and removal of North Korea's nuclear weapons and 
ballistic missile programs?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.

    Question. So, yes or no, do we have an agreement in writing with 
North Korea: That any deal that gives North Korea sanctions relief for 
anything other than the verifiable performance of its obligations to 
dismantle its nuclear and missile arsenal is a bad deal?

    Answer. Our goal is to achieve the final, fully verified 
denuclearization of the DPRK, as committed to by Chairman Kim in 
Singapore. U.N. Security Council Resolutions require North Korea to 
abandon its nuclear and ballistic missile programs. The Trump 
administration is engaged in a diplomatic effort to eliminate the 
DPRK's U.N.-prohibited WMD and ballistic missile program and has built 
unprecedented international support. Meanwhile, as the President has 
said, sanctions on the DPRK remain in effect.
    There is still a great deal of work to do to achieve our goal of 
the final, fully verified denuclearization of North Korea. The 
Department is committed to keeping you and other members of Congress 
updated on the administration's efforts.
              supporting and fostering autocratic regimes
    China may not be trying deliberately to challenge the United States 
ideologically, but its practices and policies have made the world safer 
for autocrats: it provides economic assistance with no demands on good 
governance, protects rogue regimes from punishment in international 
institutions; and teaches other countries best practices for internal 
repression. In addition to not asking questions or protecting democracy 
and human rights, China also makes it easier for autocratic regimes to 
survive through its economic support (such as Venezuela and North 
Korea), it also is exporting its pervasive surveillance technologies 
and many of the weapons used to oppress citizens seeking greater 
democratic rights.
                             belt and road
    China's economic might is its primary lever for altering existing 
global governance structures. Through its Belt and Road Initiative, 
China has expanded its economic reach throughout the globe, and with 
it, its global influence.

    Question. What can we do to check China's rise? Are infrastructure 
investments underwritten by China as part of its ``Belt and Road'' 
Initiative (BRI) about improving Chinese access to foreign markets, or 
is it a de facto way to establish a global presence that could be 
utilized for security and defense purposes--or both?

    Answer. We raise our concerns with partners and China that the 
latter's infrastructure diplomacy activities embody a set of standards 
and principles outside accepted international standards and best 
practices. The United States views One Belt One Road, or OBOR, as a 
``made by China, for China'' initiative that aims to expand China's 
state-driven, anti-competitive approach to global trade and investment. 
China would contribute more to global economic development by 
addressing the unfair barriers and imbalances in its own domestic 
market. China should follow through, for example, on its public 
commitments to reject protectionism and promote trade and investment 
liberalization by lifting numerous discriminatory policies and 
practices, including large government subsidies that favor Chinese 
firms, discrimination against foreign firms operating in China, forced 
technology transfers, foreign ownership restrictions, opaquely 
administered licensing requirements, and intellectual property theft. 
As Secretary Pompeo has said, ``It is one thing to compete in an open, 
fair, transparent way. The United States is prepared to compete with 
our NATO allies, with China, with any country that shows up with a 
commercial transaction--a better mousetrap, a better idea--and compete 
with fair, reasonable, transparent transactions. It is a very different 
thing to engage in transactions that have a national security component 
to them. When a nation shows up and offers you goods that are well 
below market, one ought to ask what else is at play, why it was that 
that entity showed up with a deal that is literally too good to be 
true.''
    This approach is working. At the second Belt and Road Forum, the 
Chinese Communist Party representatives spent most of their time on the 
defensive, explaining why OBOR is not a debt trap.

    Question. What can we do to make the United States more 
competitive--both economically and diplomatically, vis-a-vis China? 
What is the United States' competitive edge?

    Answer. The United States' competitive edge is the free and open 
global market system that we created and that has fueled unprecedented 
prosperity in the United States and around the world over the past 70 
years. In order to maintain the integrity of this system, we must 
ensure that all countries, including China, play by established rules 
that ensure market forces, not political fiat, drive national 
interaction. That means collaborating with our allies and partners to 
deal with China's state-directed economic model and unfair trade 
practices, including intellectual property theft, forced technology 
transfer, and state subsidies that distort global markets and harm 
workers and businesses in countries that play by the rules. This 
administration is taking a range of strong actions, including tariffs 
on Chinese goods, that have brought China to the negotiating table. But 
we are also strengthening our export controls, bolstering our 
investment screening, and encouraging our allies and partners to do the 
same. History has shown that the United States can out-compete any 
state-directed economy as long as we hold fast to our values and 
confront the behavior of challengers that seek to exploit our open 
economy.
                          china-latin america
    We have seen the China accelerate its engagement with Latin America 
and the Caribbean in recent years, particularly as the U.S. has 
neglected the region. In fact, Latin America has become the second-
largest destination for Chinese foreign direct investment, with more 
than half of it going to natural resources, but also includes expansion 
into tech telecoms, and auto manufacturing. From 2005-2017, China 
provided the region with an estimated $150 billion in development loans 
and other assistance, and in recent years, Chinese banks' financing to 
the region surpassed that of the World Bank and the Inter-American 
Development Bank combined. It has helped prop up the Maduro regime in 
Venezuela and has been responsible for building ports, nuclear research 
reactors, and other infrastructure projects across the region. All of 
this is our own back yard, and despite the fact that most governments 
in the region would prefer to work with the U.S. but find we are either 
not interested, not able to respond quickly enough, or offer deals that 
are too expensive or have too many strings attached . . .

    Question.What can we do to reassert a U.S. presence in the region 
as a helpful and honest partner, while preserving protections for the 
environment, human rights, and fair practices?

    Answer. As neighbors and partners, we have a strong interest in the 
region's well-being and prosperity. What China does here economically 
and otherwise affects us all. We work to strengthen governance, promote 
transparency, and ensure respect for human rights--the values that 
define our hemisphere. We oppose those who seek to silence dissent, 
deprive citizens of their privacy, impose restrictions on religious 
beliefs and practices, or use corrupt, non-transparent practices. We 
are deepening our longstanding engagement with the region and continue 
to work with our partners to uphold global standards and norms. We are 
supporting regional growth by broadening our development finance tools 
and implementing our ``Growth in the Americas''--or ``Americas Crece'' 
initiative--to catalyze private investment in energy and 
infrastructure. We support countries in the region to negotiate with 
China from a position of strength. The region is home to 12 of the 20 
countries with which we enjoy free trade agreements, and we remain 
committed to market-driven, private sector-led economic development. 
The total stock of U.S. direct investment in Latin America was $1 
trillion in 2017, compared to $390 billion from China. We believe that 
the sustainable, value-added engagement we provide is a far better 
approach for the region than predatory lending that produces little 
benefit while often leaving lasting negative impacts.
                   u.s. strategic regional alliances
    As I noted in my opening statement, in our Indo-Pacific strategy 
and our competition with China we cannot ignore the critical importance 
of our existing alliances and partnerships. Countries in Europe and 
Asia that are willing and able to work with us in meeting the challenge 
posed by China's growing power--many of which have some of the world's 
strongest economies and most powerful militaries--are a critical asset 
and indeed a competitive advantage in and of themselves.

    Question.What do you see as the best way to leverage these allies 
in constructing an Indo-Pacific strategy and in mitigating China's 
rise? Are there particular areas of your focus and attention that you 
would highlight for the Committee, with regard to existing allies and 
partners, who are concerned about recent United States' actions, 
reliability and predictability in the region?

    Answer. My first trip to the region made stops at four of our five 
allies in the region. On that trip, I was focused on hearing their 
concerns and demonstrating the U.S. commitment to the region. Clear 
communication has shown to be the most effective way to reassure I'm 
focusing on engagement and messaging to ensure allies and partners have 
the clearest understanding of our intent and expectations.
    Our existing alliances and partnerships are central to the three 
pillars of the Indo-Pacific Strategy (IPS): prosperity, governance, and 
security. The values and principles driving our policy--like 
sovereignty and decisions made free from coercion--are shared by our 
partners in the region. With these partners we have identified digital 
economy, infrastructure, and energy as target sectors for development 
in the region. No one invests more in the Indo-Pacific than we do. U.S. 
FDI more than doubled from 2007 to 2017, reaching $940 billion. In 
2016, U.S. direct investment supported 5.1 million jobs in the Indo-
Pacific region. On the security front, the U.S. provided more than $500 
million dollars in security assistance in FY2018. This includes $400 
million in foreign military financing, more than the prior 3 years 
combined. This includes a focus on maritime domain awareness, 
humanitarian assistance/disaster response, peacekeeping, and countering 
transnational threats, all of which are concerns shared by our friends 
and allies in the region. The second Indo-Pacific Business Forum on the 
sidelines of the East Asia Summit on November 4 of this year will 
demonstrate the efficacy of these programs.
                          human rights/uyghurs
    Over a million Uyghurs, Kazakhs and other ethnic Muslims remain 
arbitrarily detained in so-called re-education camps for no other 
reason than their faith, appearance and culture. We've had prominent 
Uyghurs testify in this room--calling on the United States to impose 
targeted sanctions on senior military officials who are responsible for 
this internment.

    Question. What steps is the U.S. administration taking to ensure 
that the Chinese government is held accountable for these actions?

    Answer. The United States is alarmed by China's highly repressive 
campaign against Uyghurs, ethnic Kazakhs, Kyrgyz, and other Muslims in 
Xinjiang, including the detention of over 1 million individuals in 
camps since April 2017. We have publicly expressed concern about 
China's repression and arbitrary detentions at the highest levels, 
including statements by Vice President Pence and Secretary of State 
Pompeo. We are constantly raising this issue, both with the Chinese, 
other governments, American businesses, civil society, and in 
multilateral fora. For example, on September 24, the United States co-
sponsored a panel discussion on the human rights crisis in Xinjiang on 
the margins of the United Nations General Assembly attended by more 
than 30 countries, including GCC members.

    Question. What support are we giving for refugee resettlements for 
Uyghurs in the United States or in any other part of the world?

    Answer. The U.S. government provides funding to the United Nations 
High Commissioner for Refugees (UNHCR), which has the mandate for 
protection and assistance to refugees and asylum seekers worldwide, to 
include Uyghurs and others fleeing persecution in China. The U.S. 
government considers for resettlement Uyghurs who have been referred by 
UNHCR to the U.S. Refugee Admissions Program. In addition, during the 
U.N. General Assembly, Secretary Pompeo called on all countries to 
resist China's demands to repatriate Uyghurs.

    Question. What kind of support are we giving to civil society 
organizations who are documenting the stories of Uyghurs and other 
ethnic Muslims? What are we doing to protect them and others from 
harassment?

    Answer. We commend the reporting of civil society organizations, 
academics, and news organizations that are documenting the human rights 
crisis in Xinjiang. We also recognize the bravery of so many Uyghurs 
who have shared their stories publicly, despite the risks. DRL programs 
around the world promote the development of a civil society that is 
capable of pressing governments to be responsive to human rights 
violations and citizen demands, including in places like China. This 
includes support to groups to document abuses, including of religious 
freedom.
                           human rights/tibet
    It is my firm belief that the promotion of religious freedom must 
remain a central pillar for successful U.S. foreign policy. The Chinese 
Government has sought to assert its claim that it is the sole authority 
to decide on the issue of Tibetan reincarnation, particularly that of 
the Dalai Lama, but it is my understanding that while reincarnation is 
a common belief among Buddhists, the practice of the search for the 
identification of reincarnated individuals is a purely Tibetan Buddhist 
practice. Therefore, the selection of the next Dalai Lama is a matter 
of religious freedom for Tibetan Buddhists and should be without 
governmental interference and up to the Tibetan Buddhist community. If 
any government, including that of China, should seek to intervene or 
select the next Dalai Lama, it would effectively undermine the 
legitimacy of a revered Tibetan Buddhist institution and deprive 
millions of Buddhist practitioners around the globe, including those in 
the United States, their legitimate spiritual leader and teacher.

    Question. Where do you see an opportunity for the United States to 
protect the right of Buddhists to enjoy religious freedom and to ensure 
that Buddhist religious institutions are free from Chinese 
interference?

    Answer. We are deeply concerned by the Chinese government's 
tightening restrictions on religious practice, including in particular 
interference in the selection, education, and veneration of Tibetan 
Buddhist religious leaders, which has a global impact on all 
practitioners. This administration will continue to advocate for the 
right of religious communities to select, educate, and venerate their 
leaders without interference. We will continue to urge China to promote 
religious freedom for all individuals, including Buddhists and those 
who worship outside of official state-sanctioned institutions. We 
remind Chinese counterparts that decisions regarding the selection of 
Tibetan Buddhist leaders rests with Tibetan Buddhist leaders and the 
Tibetan people. We will continue to raise Tibetan issues with Chinese 
government counterparts at multiple levels, and to have frank 
discussions with Chinese authorities about human rights and fundamental 
freedoms, including the freedoms of expression, religion, and belief.
                         democratic transitions
    Question. Broadly speaking, what is your assessment of democratic 
transitions in Southeast Asia? Are countries continuing to make 
progress in becoming free democratic societies--or have they lost 
momentum and do their setbacks signal a broader retreat from democratic 
values and principles? What is the overall trend for the region?

    Answer. Countries in Southeast Asia continue to make progress, 
albeit slow and uneven, towards democratic reforms. In Malaysia, last 
year's historic elections marked the first-ever transition of power 
from the ruling coalition to the opposition since the country's 
independence in 1957, and the new government is working towards 
implementing constructive democratic reforms. Indonesia marked two 
decades since its remarkable transition from authoritarian rule to 
democracy, and in April 2019 held its fifth successful nationwide 
election. In Burma, we strongly support ongoing efforts to promote 
democratic reforms, including establishing civilian control of the 
military, and to strengthen the capacity of civil society 
organizations, political parties, and ethnic groups to more effectively 
engage in the democratic process. In Cambodia, we had seen some 
progress with elections that allowed for effective competition between 
several parties. However, the arrest of the opposition leader, 
dissolution of his party, and subsequent ban on 118 opposition leaders 
by the Supreme Court are serious setbacks to democracy in Cambodia. 
Government efforts to curtail civil society and independent media are 
also significant challenges. Finally in Thailand, as we work with the 
newly formed Royal Thai Government to deepen the alliance and 
partnership between our two nations, we consistently message to 
Thailand's government, opposition parties, and civil society that 
democratic institutions must be strengthened and human rights and 
fundamental freedoms must be respected.
    I remain committed to supporting democratic transitions through 
engagement and foreign assistance to further advance democratic values.

    Question. What is your assessment of the current situation in 
Thailand? What is the appropriate level and type of engagement between 
the United States and Thailand as we return to ``normal'' in our 
relationship? What options are available to the United States to 
encourage or induce Thailand to continue to make progress on democratic 
and constitutional government?

    Answer. Thailand is a key partner and a long-time ally in Asia. The 
U.S.-Thai relationship covers the full range of political, security, 
and economic cooperation, and we remain committed to maintaining our 
friendship with Thailand and the Thai people. The decision to lift the 
military coup restriction on foreign assistance in July 2019 was based 
on the return to a democratically elected government, but we recognize 
that there is still work to do. For many years, we have supported the 
strengthening of democratic institutions, civil society, and 
independent media in Thailand. We consistently message to Thailand's 
government, opposition parties, and civil society that democratic 
institutions must be strengthened, and we support efforts to do so. 
Continued progress to uphold democratic institutions, human rights, and 
fundamental freedoms is essential to our ongoing partnership with 
Thailand.

    Question. How should the U.S. government reconcile two often-
competing imperatives: support for electoral democracy and close 
diplomatic and strategic relations with a U.S. treaty ally like 
Thailand?

    Answer. The United States has long supported accountable and 
democratically elected governance in Thailand, and we welcomed 
Thailand's long-awaited return to civilian rule. Secretary Pompeo 
recognized during his visit to Bangkok last month that the elected 
voices in the newly formed Royal Thai Government, both in the 
Parliament and in the Cabinet, will help assure that the government 
reflects the will of the Thai people. The lifting of the military coup 
restriction provides important new opportunities to work with the new 
government to deepen the U.S.-Thai alliance and partnership, and to 
support ongoing progress in transparency and good governance. A strong 
U.S.-Thai partnership also supports Thailand's ability to address a 
broad range of 21st century threats to a free and open Indo-Pacific 
region.
              human rights and free and open indo-pacific
    Question. How does human rights factor into decision-making in the 
administration's Free and Open Indo-Pacific strategy? How are programs 
and policies intended to support human rights and good governance being 
prioritized and resourced in the administration's budget request?

    Answer. Promoting respect for human rights and fundamental 
freedoms, including freedom of religion or belief, is a key component 
and focus our vision for a free and open Indo-Pacific. We will continue 
to promote transparency, openness, rule of law, and the protection of 
human rights and fundamental freedoms, and the United States has 
continuous and ongoing programs supporting these goals. Thanks in large 
part to the strong support we have received from Congress, our 
investments in these areas totaled over $400 million over a 2-year 
period. On November 17, 2018 at the APEC CEO Summit, the Vice President 
announced an Indo-Pacific Transparency Initiative to direct our 
investments in this space to advance shared goals in the region.
    My continued close interactions with DRL A/S Rob Destro will be 
instrumental in promoting policies intended to support human rights and 
good governance. The first collaborated event we did together was the 
Deputy Secretary's on Xinjiang at the margins of UNGA, which 
demonstrated our resolve in promoting international human rights 
standards. As such, I will continue to support human rights by 
strengthening our diplomatic and public diplomacy efforts throughout 
the world; imposing economic costs; placing export restrictions on 
items that can be misused or on entities that act in a manner 
inconsistent with U.S. foreign policy; and imposing visa restrictions 
on individuals involved in or responsible for human rights abuse. I am 
committed to working with foreign governments improve respect for human 
rights and promote good governance.

    Question. Can you ensure you will meet with civil society groups 
that work on human rights issues in the region? When you travel will 
you make sure you meet with activists on the ground?

    Answer. I assure you that I will meet with civil society groups 
that work on human rights issues while on travel in the region. I will 
also meet with activists to gain a greater understanding of the human 
rights situation on the ground. During my recent travel to Timor-Leste 
and Indonesia, I met with participants in the regional Young Southeast 
Asian Leaders Initiative (YSEALI)--who are going to be part of the next 
generation of leaders--to underscore our shared commitment to respect 
for human rights and good governance. In Singapore, I met with think 
tankers and other civil society members to discuss our shared values 
for rules-based government. In Timor-Leste, I was able to launch the 
Marie Colvin Memorial English Journalism Scholarship. Marie Colvin was 
an American journalist whose courageous reporting from a besieged U.N. 
compound in Syria after the 1999 referendum helped save the lives of 
1,500 refugees. This scholarship encourages journalism that can help 
people make informed decisions about their country and futures.

    Question. Do you believe that the crimes committed against the 
Rohingya constitute genocide or crimes against humanity?

    Answer. We remain deeply concerned about the Burmese military's 
appalling human rights abuses against Rohingya and members of other 
ethnic and religious minority groups. We remain focused on 
accountability for those responsible, seeking justice for victims, 
advocating for unhindered humanitarian access, and promoting reforms 
that will prevent the recurrence of atrocities and other human rights 
violations and abuses.
    The U.S. government has characterized the atrocities that took 
place in northern Rakhine State since August 2017 as ``ethnic 
cleansing,'' due to the horrific nature of crimes committed against 
Rohingya. Additional determinations that certain acts may amount to 
genocide or crimes against humanity would be made in the Executive 
branch by the Secretary of State, who has stated he seeks polices that 
promote accountability and change behavior. I will continue to assess 
all available information and make recommendations on how best to 
support and promote justice and accountability for atrocities and other 
human rights violations and abuses in Burma.

    Question.What steps is the administration taking in imposing real 
costs to the Burmese military and in imposing financial sanctions on 
the highest-levels of the senior military officials?

    Answer. The United States continues to prioritize accountability 
for those responsible for these abuses and justice for victims as part 
of larger efforts to promote and defend human rights. We will continue 
U.S. leadership of the international response to the Rakhine State 
crisis and efforts to deter further atrocities. In this regard, the 
United States will consider the utility of all policy tools at our 
disposal, including sanctions.
    To date, the United States has conducted its own documentation of 
abuses, sanctioned five officials and two units within the Burmese 
military, and designated four individuals as gross human rights 
violators, including the Commander-in-Chief and Deputy Commander-in-
Chief of the Burmese military. Anyone designated under this authority, 
Section 7031(c), is ineligible for entry into the United States. In 
addition, under the Leahy Law, we have found that there is credible 
information that all units and officers involved in operations in 
northern Rakhine State, as well as their chain of command up to and 
including the highest levels of the Burmese military, were implicated 
in gross violations of human rights, and therefore, consider those 
units and individuals to be ineligible to receive any U.S. assistance 
under the Leahy Law.

    Question. What signal do you think we send to the Burmese military 
or to the victims when 1 day we say they should be held accountable--
but then go on to train and conduct naval operations with their forces?

    Answer. The ASEAN-U.S. Maritime Exercise (AUMX) in Thailand 
included participants from the United States and the 10 ASEAN member 
nation states (AMS). Under long-standing ASEAN practices, AMS cannot be 
excluded from an official ASEAN event, including Burma. The substance 
of the exercise supports critical U.S. national interests in bolstering 
regional stability and cooperation.
    At the same time, we have shown, through both financial sanctions, 
Leahy Law restrictions, and visa restrictions, we are taking targeted 
actions against those who are involved in violations or abuses of human 
rights in an effort to promote accountability. In parallel, we 
undertake actions that promote civilian oversight of the military and 
the strengthening of Burma's democratic institutions. To assist Burma 
in overcoming decades of isolation and repression under military rule, 
we will search out opportunities to promote reform, advance good 
governance, and help Burma avoid mistakes of its past.

    Question. What do you believe are the main stumbling blocks for the 
continued democratic transition and for ethnic reconciliation? Are 
there constitutional or other reforms that you see as necessary if we 
are to be able to consider Burma democratic?

    Answer. We support Burma's transition away from military rule, 
efforts to make Burma's constitution more democratic, and efforts to 
defend Burma's independence from malign influences in the region. It is 
critical that the United States maintain our policy of engagement with 
Burma to move the country in the direction of civilian, democratic 
rule. We should support through engagement and foreign assistance those 
elements of civil society, business, and government that seek reform 
and to enshrine the institutions of democracy, good governance, rule of 
law, free markets, and respect for human rights.
    Empowering Burma's democratic institutions, and reducing the role 
of the military in politics, is key to addressing longstanding 
underlying challenges following 50 years of authoritarian rule. Reform 
of the military, to include placing it under civilian control and 
holding its members accountable for abuses, is critical to Burma's 
transition.

    Question. How should we approach our mil-mil relationship with 
Burma given that the Tatmadaw has yet to be held accountable for its 
role in the Rohingya genocide or other ethnic conflicts? Where and how 
do issues related to ethnic and national reconciliation fit in with the 
political transition process?

    Answer. Reforming the Burmese military, ending its decades of 
impunity, and placing it under the control of the civilian government 
is essential for Burma's future. Further, promoting ethnic and national 
reconciliation, as well as building an inclusive civic identity, is 
crucial for Burma to move past its more than seven decades of civil 
war. Ultimately, progress depends on the people, government, military, 
and armed groups of Burma, but the Department will continue to 
prioritize ways to support efforts towards peace and reconciliation.
    At present, the United States prohibits the sale of military 
equipment to Burma, as well as military assistance, including 
International Military Education and Training (IMET) and Foreign 
Military Financing (FMF) assistance. Further, under the JADE Act, the 
United States is required to restrict visas for military leaders and 
their immediate family members.
    As previously mentioned, Leahy Law ineligibilities will apply until 
the government of Burma is determined to have taken effective steps to 
bring the security force unit members responsible for gross violations 
of human rights to justice.

    Question. Over the long-term, is there anything more the U.S. can 
do to support a smooth democratic transition--and genuine national 
reconciliation--in Burma?

    Answer. The United States must maintain our policy of engagement 
with Burma to move the country in the direction of civilian, democratic 
government. We should support those elements of civil society, 
business, and government that seek reform and bolster institutions that 
promote democracy, good governance, rule of law, free markets, and 
respect for human rights, including religious freedom. That includes 
strengthening the capacity of civil society organizations, political 
parties, and ethnic groups to more effectively engage in the democratic 
process; empowering public servants to be responsive to their 
constituents; encouraging responsible investment and businesses 
practices to shrink the space for corruption; and expanding 
opportunities for the next generation of leaders to continue needed 
reforms.

    Question. In the past week, Taipei has lost two more diplomatic 
partners to Beijing. Given the steady bleeding away of Taiwan's 
diplomatic recognition under the Trump administration, what more needs 
to be done to support Taiwan's international space?

    Answer. The State Department is already taking actions to 
demonstrate its continued support for Taiwan's participation in the 
international community--a reflection of the strong belief that it is a 
democratic success story, a reliable partner, and a force for good in 
the world. As we draw attention to Taiwan strengthening its ties with 
its remaining diplomatic partners, we also point out Beijing 
destabilizing and coercive actions, which run counter to the Three 
Communiques.
    During the United Nations General Assembly High-Level Week, the 
United States invited Taiwan authorities to attend several U.S.-hosted 
side events. These included a religious freedom event at U.N. 
Headquarters, where President Trump delivered remarks, a roundtable on 
directing U.S. capital to emerging markets in the Indo-Pacific, and a 
roundtable on promoting gender equality in the Indo-Pacific. In 
addition, Taiwan President Tsai Ing-wen met with the U.N. ambassadors 
of all Taiwan's diplomatic partners during her transit through New York 
City in July 2019.
    Nine of Taiwan's remaining 15 diplomatic partners are in Latin 
America and the Caribbean. We believe that Taiwan has been a committed 
development partner in the region, whether through direct bilateral 
assistance or through its long-standing support of the Inter-American 
Development Bank (IDB). The Bureau of Western Hemisphere Affairs has 
been actively engaging Taiwan and regional partners to enhance 
cooperation, as well as investment and infrastructure financing 
initiatives. In June, Principal Deputy Assistant Secretary Julie Chung 
met with Taiwan's ambassadors in Haiti and St. Lucia. She also 
participated in the U.S.-Taiwan Working Group Meeting on International 
Organizations on August 6. The State Department sent a Deputy Assistant 
Secretary from the Bureau of Western Hemisphere Affairs to speak at an 
event in commemoration of the IDB's 60th anniversary that the Center 
for Strategic and International Studies (CSIS) hosted on Taiwan's role 
as a development partner in the region. The event highlighted Taiwan's 
25 years of contributions to the IDB, including funding for women 
entrepreneurs, programs to prevent chronic kidney disease, and training 
for engineers. The event drew senior officials from the State 
Department, the Overseas Private Investment Corporation (OPIC), the 
U.S. Agency for International Development (USAID), and representatives 
from Taiwan's diplomatic partners in the region.
    To highlight Taiwan's strengths as a partner for countries in the 
Pacific, the American Institute in Taiwan (AIT) and Taiwan Ministry of 
Foreign Affairs (MOFA) are co-hosting the first-ever Pacific Islands 
Dialogue in October 2019. The senior-level dialogue will explore 
potential areas of cooperation between the United States, Taiwan, and 
our like-minded partners in the Pacific Islands.
    More broadly, the State Department supports Taiwan's meaningful 
participation in international organizations that do not require 
statehood, and focus on public health, safety, and security. We 
continue to work with our like-minded partners to advocate for Taiwan 
in multilateral fora, including the World Health Organization (WHO), 
the International Civil Aviation Organization (ICAO), and the 
International Police Organization (INTERPOL), where Taiwan seeks to 
expand its already significant contributions to addressing global 
challenges.
                               __________

              Responses to Hon. David Stilwell Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. Does the State Department support passage of the Hong 
Kong Human Rights and Democracy Act?

    Answer. We are concerned about efforts by Beijing to erode the 
autonomy that underpins our special treatment of Hong Kong. We will 
continue to engage with Congress on these issues.

    Question. What message have we delivered to the Chinese and Hong 
Kong authorities about what U.S. redlines are?

    Answer. The United States remains staunch in our support for Hong 
Kong's high degree of autonomy as guaranteed in the Sino-British Joint 
Declaration and reflected in the aspirations of Hong Kongers. In 
response to the ongoing crisis, we have urged all sides to exercise 
restraint and expressed strong support for freedom of expression and 
peaceful assembly in Hong Kong. The Department has clearly stated that 
any forcible intervention in Hong Kong would be unacceptable to the 
international community and have dire consequences for China's global 
reputation, relationships, and interests.

    Question. What would be the consequences and implications if the 
Chinese government were to roll in with their security forces and 
crackdown on the protestors?

    Answer. The United States has called on the PRC government to 
adhere to its commitments and obligations under the Basic Law and the 
Sino-British Joint Declaration to respect Hong Kong's high degree of 
autonomy. We have clearly stated that forcible intervention by Beijing 
in Hong Kong would face the harsh condemnation of the international 
community and would have lasting negative consequences for China's 
global reputation, relationships, and interests. We will continue to 
urge China to exercise restraint and act in accordance with its 
commitments and obligations regarding Hong Kong.

    Question. Please expand on Secretary of Defense Mark Esper's 
statement that the Indo-Pacific is ``our priority theater.''

    Answer. Although the Department of Defense is best placed to 
comment on the Secretary of Defense's specific remarks, we share his 
focus on the Indo-Pacific as a priority. From early in this 
administration, President Trump made engagement in the lndo-Pacific 
region a priority. In November 2017 in Vietnam, he outlined a vision 
for a free and open Indo-Pacific region where all countries can prosper 
side by side as sovereign, independent states.
    The U.S. National Security Strategy recognizes that we are entering 
a new era of great power competition, and that the Indo-Pacific will be 
a central focus in that competition. Through a whole-of-government 
Indo-Pacific strategy, we are dedicated to building new partnerships 
with countries and institutions that share our commitment to an 
international system based on clear and transparent rules.
    The U.S. government has taken several steps to invest and orient 
ourselves in line with the President's prioritization of the Indo-
Pacific region. The United States also provided almost three-quarters 
of a billion dollars in security assistance for Indo-Pacific nations in 
fiscal years 2018 and 2019, including $500 million in bilateral and 
regional foreign military financing.

    Question. Do you expect an expansion of naval deployments or other 
activities in the region?

    Answer. Questions about specific military deployments and 
activities remain within the purview of the Department of Defense, 
however, maritime security is a shared focus of our activity in the 
Indo-Pacific. The U.S. has an enduring national interest in ensuring 
freedom of navigation and other lawful uses of the sea.
    We support cooperation with Indo-Pacific partners to maintain free 
and open access to the maritime domain for all nations. Moving forward, 
we will continue to support continued multilateral activities with 
like-minded partners, to include exercises, port visits, and Freedom of 
Navigation Operations.

    Question. Secretary Esper has spoken of expanding U.S. base 
locations in the region. What possibilities exist in this regard?

    Answer. DoD is best placed to answer this question. We will 
continue to seek opportunities for appropriate diplomatic engagement to 
support DoD's efforts to build partnerships and grow U.S. presence in 
cooperation with our like-minded partners and allies.

    Question. What are the administration's goals for the upcoming East 
Asia Summit and the U.S.-ASEAN summit in November?

    Answer. The administration plans to engage the East Asia Summit and 
U.S.-ASEAN summits to further advance our strategy for a free and open 
Indo-Pacific. We will demonstrate our vigorous commitment to peace and 
security in the region, and highlight our deep-rooted and dynamic 
economic ties in the region, including the extensive role of the U.S. 
private sector. The administration will advance U.S. interests on 
regional security priorities, in particular, North Korea's 
denuclearization, addressing China's militarization of disputed 
features and provocative actions in the South China Sea, as well as the 
ongoing situation in Burma's Rakhine State. The administration will 
reaffirm its commitment to a robust, unified ASEAN at the heart of the 
free and open Indo-Pacific. The summits will also be an opportunity to 
demonstrate close alignment with our allies and partners on efforts in 
Southeast Asia and the benefits that accrue to the entire Indo-Pacific 
as a result of those partnerships. In addition to the East Asia Summit 
and U.S.-ASEAN Summit, the United States and Thailand will co-host the 
Indo-Pacific Business Forum on November 4, to highlight our economic 
and commercial engagement under the Indo-Pacific Strategy and expand 
the economic ties that drive job growth and prosperity on both sides of 
the Pacific. The Business Forum will promote the role of our dynamic 
private sector in the region, and the importance of a high quality, 
transparent, socially-responsible approach to business.

    Question. Will President Trump attend the EAS and U.S.-ASEAN 
summits in Bangkok?

    Answer. The administration recognizes the importance of 
participating at the highest possible level in ASEAN-centered meetings, 
including the U.S.-ASEAN and the East Asia Summit. While a decision has 
not yet been made on who will lead the U.S. delegation to the summits, 
the administration is fully committed to advancing our vision for a 
free, open, and secure lndo-Pacific region.
    As an Indo-Pacific power, consistent and sustained U.S. leadership 
in the region is vital to our long-term national security. The 
President's National Security Strategy and National Defense Strategy 
make clear the priority the United States places on injecting new 
vitality into our regional partnerships, and the administration is 
resolved to maintaining our longstanding leadership role and defending 
the security and prosperity of this vital region.
                          u.s.-china relations
    In August 2018, a U.N. panel said it was ``alarmed'' by reports of 
mass detentions and mass surveillance in Xinjiang. It recommended an 
end to extralegal detentions and the immediate release of detainees. In 
his October 2018 speech, Vice President Pence asserted that Uyghurs 
were being subjected to ``around-the-clock brainwashing'' and that 
survivors see the camps as an effort to ``stamp out the Muslim faith.''

    Question. Are U.S. officials pressing PRC officials about human 
rights issues in Xinjiang, and, if so, through what means and in what 
venues?

    Answer. The administration remains deeply concerned by China's 
crackdown on the human rights and fundamental freedoms, including 
religious freedom, of Uyghurs, ethnic Kazakhs, Kyrgyz, and other 
members of Muslim minority groups in Xinjiang. We continually press 
China, both publicly and privately, to end its repression of members of 
ethnic and religious minority groups and release all those who have 
been arbitrarily detained. In addition, the Department of State is 
actively working with other agencies on effective actions to address 
these human rights issues. The Department has conducted outreach to 
U.S. and Chinese companies with business in Xinjiang to urge them to 
implement human rights safeguards in an effort to ensure that their 
commercial activities do not contribute to these abuses.

    Question. Is the United States government involved in any 
coordinated international activity on behalf of Uyghurs in Xinjiang?

    Answer. The Department of State is leading extensive diplomatic and 
public diplomacy efforts to galvanize international condemnation of the 
Chinese government's human rights abuses in Xinjiang. On March 13, we 
co-hosted an event on the human rights crisis in Xinjiang at the U.N. 
in Geneva on the margins of China's Universal Periodic Review. On March 
26, Secretary Pompeo met with Uyghurs affected by PRC repression. 
During the Ministerial to Advance Religious Freedom in July, President 
Trump met with survivors from the many communities impacted by China's 
restrictions, including Uyghurs. During President Trump's Global Call 
to Protect Religious Freedom on the margins of the U.N. General 
Assembly (UNGA) on September 23, Jewher llham testified to China's 
abuses of Uyghurs. On September 24, also on the margins of the U.N. 
General Assembly, Deputy Secretary Sullivan co-hosted (with Canada, 
Germany, the Netherlands, and UK) an event on the human rights crisis 
in Xinjiang. This event was attended by over 30 U.N. member state 
delegations, as well as live streamed and amplified in multiple 
languages through various Department social media platforms, reaching 
an online audience of over 191,000. The Department will continue to 
lead international coordination efforts on this issue through regular 
diplomatic engagement.

    Question. What is the status of U.S. considerations regarding 
imposing Global Magnitsky Act sanctions on Xinjiang officials?

    Answer. The Chinese Government's detention of more than 1 million 
individuals in Xinjiang since April 2017 is illustrative of the 
worsening human rights situation in China. We are committed to using 
all tools available as appropriate to hold accountable those Chinese 
officials responsible for these human rights abuses and will not cease 
our actions until Beijing's behavior changes.

    Question.Is the administration's tariff policy toward China part of 
an effort to ``decouple'' the U.S. and Chinese economies in the name of 
national security, as some administration officials have suggested? Is 
that a realistic goal?

    Answer. It is not U.S. policy to ``decouple'' from China or 
constrain its growth in any way. The President wants a robust trading 
and investment relationship with China, as long as it plays by the 
rules and does not exploit our open system. The goal of applying 
tariffs is to encourage The People's Republic of China to cease acts, 
policies, and practices covered by USTR's Section 301 investigation, 
including China's market-distorting technology transfer requirements 
and intellectual property practices that threaten American innovation 
in critical sectors. China should adopt policies that will lead to 
fairer trade, more efficient markets, and prosperity for all of our 
citizens.

    Question.Do you believe that the crimes committed against the 
Rohingya constitute genocide or crimes against humanity?

    Answer. The Department remains deeply concerned about the Burmese 
military's appalling human rights abuses against Rohingya and members 
of other ethnic and religious minority groups. We remain focused on 
accountability for those responsible, seeking justice for victims, 
advocating for unhindered humanitarian access, and promoting reforms 
that will prevent the recurrence of atrocities and other human rights 
violations and abuses.
    The U.S. government has characterized the atrocities that took 
place in northern Rakhine State since August 2017 as ``ethnic 
cleansing,'' due to the horrific nature of crimes committed against 
Rohingya. Additional determinations that certain acts may amount to 
genocide or crimes against humanity would be made in the Executive 
branch by the Secretary of State, who has stated he seeks polices that 
promote accountability and change behavior. I will continue to assess 
all available information and make recommendations on how best to 
support and promote justice and accountability for atrocities and other 
human rights violations and abuses in Burma.

    Question. What steps is the administration talcing in imposing real 
costs to the Burmese military and in imposing financial sanctions on 
the highest-levels of the senior military officials?

    Answer. The United States continues to prioritize accountability 
for those responsible for these abuses and justice for victims as part 
of larger efforts to promote and defend human rights. We will continue 
U.S. leadership of the international response to the Rakhine State 
crisis and efforts to deter further atrocities. In this regard, the 
United States will consider the utility of all policy tools at our 
disposal, including sanctions.
    The United States has conducted its own documentation of abuses, 
sanctioned five officials and two units within the Burmese military, 
and designated four individuals as gross human rights violators, 
including the Commander-in-Chief and Deputy Commander-in-Chief of the 
Burmese military. Anyone designated under this authority, Section 
7031(c), is ineligible for entry into the United States. In addition, 
under the Leahy Law, we have found that there is credible information 
that all units and officers involved in operations in northern Rakhine 
State, as well as their chain of command up to and including the 
highest levels of the Burmese military, were implicated in gross 
violations of human rights, and therefore, consider those units and 
individuals to be ineligible to receive any U.S. assistance under the 
Leahy Law.

    Question. The United States has since then certified that Thailand 
has restored democracy and resumed normal military to military 
relations--does it believe then that Thailand had a free and fair 
elections?

    Answer. The United States has long supported accountable and 
democratically elected governance in Thailand, and we welcomed 
Thailand's long-awaited return to civilian rule. Following the 
election, we noted our concerns about ongoing criminal cases and 
disqualification reviews, and we advocated that the Election Commission 
should resolve these cases through a transparent process that maintains 
the confidence of the Thai people and in accordance with democratic 
norms. In accordance with U.S. law, the certification that a 
democratically elected government had taken office in Thailand resulted 
in the lifting of the military coup restrictions on assistance to the 
Government of Thailand. We also understand that there is still work to 
do to strengthen democracy and rule of law in Thailand. The United 
States has long supported the strengthening of democratic institutions, 
civil society, and independent media in Thailand, and we will continue 
to do so.

    Question. What levers does the United States have to push for human 
rights and democracy issues in Thailand?

    Answer. The lifting of the military coup restrictions provides 
important opportunities to work with the new government to deepen the 
U.S.-Thai alliance and partnership, and to support ongoing progress in 
transparency and good governance. Our foreign assistance to Thailand 
focuses on law enforcement capacity building, trafficking in persons, 
security assistance, assisting refugees and displaced persons, and 
strengthening democratic institutions. We consistently message to 
Thailand's government, opposition parties, and civil society that 
democratic institutions must be strengthened, and we support efforts to 
continue Thailand's democratic progress.

    Question. Does the State Department consider Taiwan to be a 
``country,'' and if so, does it no longer consider Taiwan's political 
status to be unresolved?

    Answer. The United States remains committed to the U.S. one China 
policy based on the Three Joint Communiques and the Taiwan Relations 
Act. Consistent with the one China policy, the United States recognizes 
Beijing as the sole legal government of China and has acknowledged the 
Chinese position that there is one China. There has been no change to 
our one China policy. This policy has enabled us to maintain robust 
unofficial relations with Taiwan while pursuing a constructive, 
results-oriented relationship with China. Our consistent policy has 
contributed to the security of Taiwan, and supported the maintenance of 
peace and stability across the Taiwan Strait.

    Question. How, if at all, is the administration planning to help 
Taiwan resist potential PRC influence operations targeting the January 
2020 presidential and legislative election?

    Answer. Strengthening Taiwan's ability to resist potential PRC 
influence operations is a priority for the administration, and the 
Department of State is currently working a variety of initiatives in 
support of this objective. Defending democratic institutions and 
countering disinformation is a focus for the American Institute in 
Taiwan (United States) and TECRO's (Taiwan) Global Cooperation and 
Training Framework (GCTF), which aims to leverage Taiwan's resources 
and capabilities to amplify U.S. programming and outreach across the 
Indo-Pacific. Launched in 2015, the GCTF has convened more than a dozen 
programs on a variety of issues, including media disinformation. 
Hundreds of policymakers and experts from throughout the Indo-Pacific 
have participated.
    Most recently, on September 10-11 in Taipei, AIT and the Taiwan 
Foundation for Democracy (TFD) organized a GCTF workshop on Defending 
Democracy through Promoting Media Literacy, which involved the 
participation of Deputy Assistant Secretary Scott Busby from the State 
Department's Bureau of Democracy, Human Rights, and Labor. Under AIT 
auspices, the Bureau also led the first annual U.S.-Taiwan 
Consultations on Democratic Governance in the Inda-Pacific Region on 
September 12 in Taipei. The consultations are a platform for U.S. and 
Taiwan stakeholders to explore potential areas of cooperation to 
promote democratic values and transparency in the region. Both events 
examined Taiwan's existing efforts to promote media literacy among 
students and the general populace, and to counter disinformation from 
authoritarian regimes, especially in the lead up to Taiwan's 
presidential and legislative elections on January 11, 2020.
    Working through AIT, the Department of is also partnering with 
Taiwan's National Information and Communication Security Task Force 
(NCIST) to host a two-part cyber security training and simulation on 
November 4-8, 2019. Part of this training, Taiwan's annual Cyber 
Offense and Defense Exercise (CODE), will focus on strengthening 
cybersecurity of Taiwan's critical IT infrastructure, including 
election systems, as well as strengthening Taiwan authorities' 
resilience to malicious cyber activities, including social engineering.
    Additionally, through AIT, the Department's Global Engagement 
Center (GEC) implements several counter-disinformation programs with 
Taiwan organizations. GEC will implement multiple projects in the 
coming fiscal year to provide rapid election-related support, as well 
as build longer-term resilience. These projects include supporting fact 
checking and media literacy organizations, strategic communications 
workshops to more effectively counter disinformation, and research to 
analyze the impact and longer-term trends of disinformation in Taiwan. 
GEC also partners with Taiwan organizations to build capacity in other 
countries.
    Through GEC's support, TFD and the East-West Center partnered this 
past summer on a good governance and rule of law workshop that convened 
civil society members from Pacific Island countries. During the GCTF 
workshop and democratic governance consultations in September 2019, 
U.S. and Taiwan authorities committed in principle to build upon these 
workshops to train additional regional partners.

    Question. In your view, how does Australia fit into the United 
States' free and open Indo-Pacific strategy? What is Thailand's role in 
the strategy?

    Answer. We share a commitment with our allies Australia and 
Thailand--and with other partners--to preserve an Indo-Pacific that is 
free and open. Our close cooperation with Australia--one of our most 
capable and reliable partners in the Indo-Pacific--is underpinned by a 
deep alignment of our mutual interests and shared values, and evident 
from our consistent, high-level bilateral engagements including AUSMIN, 
the annual Australia-U.S. Ministerial Consultations. Through these 
engagements, the United States and Australia work together to tackle 
our most pressing regional and global challenges, including preventing 
Chinese interference in the Pacific. The United States and Australia 
also share a deep commitment to ASEAN centrality, and we are both 
committed to working with ASEAN to strengthen its role as a centerpiece 
of the Indo-Pacific's regional architecture and increase its 
contributions to a free and open Indo-Pacific region.
    Thailand is one of our longest standing allies in the Indo-Pacific 
region, and our broad cooperation continues on issues that benefit both 
of our countries, the region, and beyond. A strong U.S.-Thai alliance, 
forward-looking and rooted in history, facilitates a free and open, 
prosperous, and peaceful Indo-Pacific region. Together we have made 
progress on shared goals such as advancing regional security, expanding 
trade and investment, addressing public health challenges, countering 
transnational crime, combating trafficking in persons, and assisting 
refugees and displaced persons. We value Thailand's role as a regional 
leader, including its chairmanship of ASEAN this year, as well as its 
co-hosting of the Indo-Pacific Business Forum on November 4, 2019.

    Question.To what degree is the United States coordinating a 
security strategy in the Southwest Pacific with allies Australia, New 
Zealand, and Japan?

    Answer. As part of the U.S. Indo-Pacific Strategy, the United 
States is addressing regional security challenges by redoubling our 
commitment to established alliances and partnerships, in this case by 
working with Australia, New Zealand, and Japan in the Pacific. We have 
a shared interest with all three nations--and with other like-minded 
partners--to confront common threats, protect shared resources, and 
uphold sovereignty-including in the Pacific Islands.
    The United States coordinates regularly on security cooperation in 
the Pacific through several mechanisms. Specifically with Australia and 
New Zealand, we conduct an annual Australia-New Zealand-United States 
Trilateral Pacific Security Dialogue. Together with France, the United 
States works with Australia and New Zealand in the Quadrilateral 
Defense Coordination Group to coordinate maritime security efforts in 
the Pacific Islands region.
    INDOPACOM regularly coordinates capacity-building activities 
including the building, training, and equipping of the Pacific Island 
Countries' security forces with Australia, Canada, France, Japan, New 
Zealand, and the United Kingdom,. The Department of Defense partners 
closely with Australia and New Zealand in delivering humanitarian 
assistance and defense capacity building in the region. In 2018, the 
Australian government agreed to lead an effort with the United States 
to redevelop a naval base in Papua New Guinea. Both Australia and New 
Zealand have welcomed increased U.S. defense attache presence in the 
Pacific, including new offices in Papua New Guinea and Micronesia.
    The United States, Australia, and Japan are pursuing complementary 
initiatives to build capacity that advances the region's rules-based 
maritime order and boosts resiliency to natural disasters. Three 
Cabinet Secretaries have visited the region in the past year. In Palau 
for instance, the United States is supporting efforts to improve its 
maritime domain awareness through the installation of a maritime 
coastal surveillance system; Japan has established a maritime law 
enforcement center; and Australia is providing a patrol boat. The 
United States, Australia and Japan hold the Security and Defense 
Cooperation Forum, an annual trilateral dialogue to promote cooperation 
in areas such as humanitarian assistance and disaster relief, 
peacekeeping support, and maritime capacity building. At the margins of 
the 18th Shangri-La Dialogue in Singapore, the Acting Secretary of 
Defense and the Japanese and Australian ministers of Defense agreed on 
a Strategic Action Agenda that enables their respective defense 
organizations to plan and implement enhanced trilateral defense 
cooperative activities.
                               __________

             Responses of Hon. David Stilwell to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. The administration has threatened to withdraw from the 
Universal Postal Union (UPU), which would be detrimental to efforts to 
reduce the flow of fentanyl and other opioids into the United States. 
Withdrawal from the UPU would seriously hamstring the ability of the 
Postal Service to collect electronic data on packages arriving from 
abroad. Do you believe it is important that the United States remain 
within the Universal Postal Union and increase efforts to ensure 
countries are providing advance electronic data on international mail?

    Are you aware of efforts within or outside the State Department to 
ensure the Postal Service is receiving advance electronic data on 
packages from abroad?

    Answer. The Universal Postal Union is a valuable institution that 
helps serve many American interests. The administration would strongly 
prefer to remain in the Union.\1\
---------------------------------------------------------------------------
    \1\ On September 25, the UPU Extraordinary Congress agreed by 
consensus to a landmark set of reforms. These reforms secured the main 
objectives of the Trump administration, representing a major diplomatic 
victory and a demonstration of American leadership. As part of the 
agreement, the U.S. Postal Service will provide the UPU 40 million 
Swiss francs ($40 million) over the next 5 years to address several 
U.S. priorities including increasing the capacity of UPU members to 
provide advanced electronic data (AED), addressing the challenge of 
counterfeit goods, and stemming the shipment of drugs through the 
postal system.
---------------------------------------------------------------------------
    At the same time, the UPU's procedures have not kept pace with 
changes in the global economy. Ensuring the exchange of advance 
electronic data for international mail has been one of our two chief 
negotiating objectives in the last year of intensive outreach and 
negotiation with other UPU members by the State Department and U.S. 
Postal Service. These efforts compliment robust assistance programs by 
both agencies to ensure receipt of advance electronic data. We are 
confident that those negotiations will come to a successful conclusion.

                               __________

             Responses of Hon. David Stilwell to Questions 
                 Submitted by Senator Edward J. Markey

                               hong kong
    On August 30th, I wrote to Facebook CEO, Mark Zuckerberg, asking 
why Facebook runs . targeted ads for state-controlled media 
organizations--including those in mainland China--that dehumanize and 
spread disinformation about the Hong Kong protestors. Unlike Twitter, 
which changed its policy during the protests, Facebook still accepts 
money from Chinese state-run outlets that use its platform to cast 
protestors as rioters and extremists. Without a change in policy, 
state-run outlets will keep finding ways to spread their skewed 
narratives without technically violating Facebook's content 
restrictions.

    Question. Do you believe these advertisements can have a negative 
effect on U.S. interests and values?

    Answer. The United States recognizes the important role of an 
independent and free media in a democratic society. The freedoms of 
expression, including for members of the media, and peaceful assembly 
are core values that we share with Hong Kong; these must be vigorously 
protected. We are deeply concerned by Chinese government attempts to 
manipulate public opinion by spreading disinformation about the 
situation in Hong Kong--including through the use of state-sponsored 
disinformation campaigns on social media and other platforms.

    Question. Have you been in touch with American social media 
companies regarding their responsibilities with respect to 
disinformation spread by state-controlled entities? If so, to which 
companies did you speak and what did you say?

    Answer. We engage in regular dialogue with American social media 
companies. Following Facebook's August 19 announcement that it removed 
multiple Chinese accounts linked to state-sponsored disinformation 
campaigns, Department of State officials raised the matter with 
Facebook's Hong Kong office. The conversation focused on the balance 
between protecting freedom of expression and combating coordinated 
disinformation campaigns in the context of the ongoing protests in Hong 
Kong. Facebook subsequently announced that its collaboration with the 
Agence-France Presse (AFP) fact check service, which provides Facebook 
with fact-based justifications for removing certain instances of 
disinformation, would be extended to Hong Kong.

    Question. What signal does it send to would-be authoritarians 
around the world that the United States is overlooking widespread, 
structural impediments to democracy?

    Answer. The United States supports democracy, human rights, and 
fundamental freedoms as essential components of good governance, peace, 
and prosperity around the world. For instance, following Thailand's 
elections on March 24, the seating of Parliament, and the subsequent 
formation of government on July 16, the Secretary of State certified 
that a democratically elected government had taken office in Thailand. 
This certification resulted in the lifting of the restrictions on 
assistance to the Government of Thailand imposed as a result of the 
2014 military coup, in accordance with U.S. law. We have long supported 
accountable and elected governance in Thailand, and we are pleased to 
see a great diversity of opinion and voices in Parliament. The decision 
to lift to military coup restrictions was based on the seating of a 
democratically elected government, but we understand that work remains 
to be done by Thailand on democracy and human rights. We continue to 
call on Thailand to strengthen democratic institutions and protect 
human rights and fundamental freedoms.

    Question. If we are to credibly push back on the pernicious rise of 
authoritarian policies, especially those being implemented and 
exported-tacitly, if not explicitly-by the Chinese government, why 
should the United States quickly and fully restore relations with 
countries where democracy is being thwarted?

    Answer. We always seek to see democratic values advance around the 
world. For example, the U.S.-Thai relationship covers a wide range of 
political, security, and economic cooperation. We congratulated the 
tens of millions of Thai citizens who participated in the long-awaited 
March 24 election for demonstrating their strong support for a return 
to elected government. The voting process, robust media coverage of 
that process, and open debate around its merits are steps toward a more 
democratic government that reflects the will of the people. We welcome 
the diverse elected voices in the newly formed Royal Thai Government, 
and we have communicated to the Royal Thai Government that continued 
progress to uphold democratic institutions, human rights, and 
fundamental freedoms is essential to the success of our ongoing 
partnership with Thailand. We remain committed to maintaining our 
enduring friendship with Thailand and the Thai people.

    Question. Why is the first military equipment the United States is 
selling to the Thai military capabilities that could be used against 
the Thai people in another coup? What other military equipment could 
the United States have decided to sell to Thailand that would not have 
a potential role in suppressing protestors?

    Answer. Thailand is a key U.S. defense partner and ally. The sale 
and use of U.S. military equipment advances the Royal Thai Anny's 
efforts to modernize and improve its interoperability with the U.S. 
military. The United States reviews each sale of defense equipment on a 
case-by-case basis in accordance with the Conventional Arms Transfer 
policy. This review includes human rights concerns. If the United 
States has reason to believe that the transferred equipment will be 
used to commit human rights violations, the transfer would not be 
authorized. The United States has robust military to military 
cooperation with Thailand and conducts more than 400 joint engagements 
and exercises each year, ranging from public health to cyber 
cooperation to humanitarian assistance and disaster relief. These 
efforts demonstrate our steadfast commitment towards enhancing critical 
capabilities and readiness required to address together the full 
spectrum of security challenges in the Indo-Pacific.

    Question. Are there benchmarks in place that the Thai government 
must meet to warrant future military sales? Are there other ways in 
which the State Department is using American leverage to ensure that 
democracy and human rights are not suffering in the attempt to blunt 
Chinese influence?

    Answer. The United States is committed to a long-time partnership 
with Thailand, a key ally, assisting it in defense modernization 
efforts to be ready and capable to address a broad range of 21st 
century threats to a free and open Indo-Pacific. At the same time, 
protecting human rights and advancing democratic values remain among 
our highest priorities in Thailand, and we will continue to ensure that 
those priorities are advanced in our engagement. U.S. military 
assistance to Thailand is consistently evaluated according to U.S. law 
and policy objectives, and we are carefully tracking Thailand's 
democratic progress and protections of human rights. For example, in 
addition to building relationships that support our diplomatic and 
military interests in Thailand, U.S. International Military Education 
and Training (IMET) courses help promote the United States' tradition 
of upholding and respecting the international law of armed conflict and 
human rights, including civil and political liberties, as well as the 
military's responsibility to protect civilian life and support a 
civilian government.

    Question. What metrics are you using to determine whether Thailand 
is making sufficient progress in its transition to greater democracy?

    Answer. We consistently message to Thailand's government, 
opposition parties, and civil society that democratic institutions must 
be strengthened and human rights and fundamental freedoms must be 
respected. The promotion of democracy, human rights, and fundamental 
freedoms has been a major part of all high-level engagements with 
Thailand for many years, including Secretary Pompeo's recent visit to 
Thailand for ASEAN Foreign Ministers' Meetings. We are consistently 
tracking and providing support for Thailand's democratic progress. Our 
messaging and engagements intentionally underscore our commitment to 
advancing democratic principles in Thailand. Local elections, expected 
in 2020, present an opportunity for us to help enlarge the democratic 
space and will provide insight into Thailand's progress toward stronger 
democratic institutions.

    Question. Is the State Department working with Thai authorities to 
ensure that the country is open to political asylum seekers? What U.S. 
programs or supports are in place to assist those fleeing retribution?

    Answer. Thailand has a legacy of hosting large numbers of refugees 
over the past 40 years. We consistently advocate with Thailand's 
government, both at the central and local level, to build on that 
legacy and provide stronger protection for refugees and asylum seekers 
and increase diplomatic engagement on the Rohingya crisis. We 
coordinate closely with international organizations (such as UNHCR), 
NGOs, and like-minded diplomatic partners to maximize the effectiveness 
of our humanitarian diplomatic outreach. We regularly urge governments 
in Southeast Asia, including Thailand's government, to strengthen legal 
and other protections and to honor their international human rights 
commitments in order to prevent the repatriation of refugees and asylum 
seekers to their countries of origin against their will. We also 
advocate to Thailand's government to allow refugees and asylum seekers 
to remain outside of immigrant detention, to grant temporary residence 
and work authorization for refugees, and to provide protection to 
Rohingya and other asylum seekers transiting Thailand by land or sea.

    Question. Does the State Department have the authority to impose 
visa bans against foreign officials that violate human rights?

    Answer. Under INA Section 212(a)(3)(C), if the Secretary of State 
determines that an alien's entry or proposed activities in the United 
States ``would have potentially serious adverse foreign policy 
consequences for the United States,'' that alien is inadmissible. We 
will continue to promote accountability for those who commit human 
rights violations and abuses, including by considering targeted 
measures against Xinjiang officials. China should end its repression of 
members of ethnic and religious minorities and release all those who 
have been arbitrarily detained. Until such time, we will continue to 
consider all available diplomatic options.

    Question. Are you aware of any communication from the White House 
instructing the State Department not to use this authority against 
Chinese officials?

    Answer. The American people have strong concerns about China's 
activities in Xinjiang, which are reflected across the U.S. government. 
Secretary Pompeo has repeatedly denounced China's actions, including 
during his March meeting with Uyghur Muslims at the Department of 
State, and at the State Department-hosted Ministerial to Advance 
Religious Freedom. The Vice President has been similarly outspoken. At 
the same ministerial on July 18, he characterized China's campaign as a 
``deliberate attempt by Beijing to strangle Uyghur culture and stamp 
out the Muslim faith.'' On July 17, the President himself also 
personally heard from Jewher llham, who is the daughter of prominent 
Uyghur scholar Ilham Tohti, who was given a life sentence in 2014.

    Question. What signal does it send to would-be authoritarians 
around the world that the United States refuses to impose targeted 
sanctions on Chinese officials responsible for widespread repression 
and incarceration of ethnic minorities and other groups?

    Answer. I am deeply troubled by the Chinese government's worsening 
crackdown on the human rights and fundamental freedoms, including 
religious freedom, of Uyghurs, ethnic Kazakhs, Kyrgyz, and other 
members of Muslim minority groups in Xinjiang. China must end its 
repression of members of ethnic and religious minorities and release 
all those who have been arbitrarily detained. Until such time, the 
United States will continue to urge the international community to 
raise their concerns, and consider all available diplomatic options.

    Question. In May of this year, I sent a letter along with 25 of my 
colleagues in the House and Senate, raising the cases of three jailed 
journalists in Vietnam who work for Radio Free Asia and the Voice of 
America-two U.S.-funded organizations that are under the U.S. Agency 
for Global Media.

    What is the State Department doing to advocate for the release of 
these individuals?

    Answer. Press freedom is fundamental to transparency and 
accountable governance. Journalists often do their work at great risk, 
and it is the duty of governments and citizens worldwide to protect 
their right to do their jobs without retribution. These cases were 
among the cases of concern that the United States raised the issue at 
the annual U.S-Vietnam Human Rights Dialogue, held most recently in May 
2019. State Department officials have continued to advocate on behalf 
of these journalists as well as for other political prisoners at all 
levels of government. We regularly call on Vietnam to respect and 
protect human rights and fundamental freedoms for all in Vietnam, 
consistent with its international obligations and commitments.

    Question. Has the U.S. Embassy in Bangkok asked Thai authorities 
about their ongoing investigation into Radio Free Asia blogger Truong 
Duy Nhat's abduction from Thailand? If so, what was the government's 
response?

    Answer. The Department is aware of reports that Radio Free Asia 
blogger Truong Duy Nhat is in Vietnam and is being prosecuted for 
corruption. We are continuing to monitor the situation closely. We 
understand that Mr. Nhat was attempting to register as an asylum seeker 
in Thailand when he disappeared in late January 2019, but the exact 
sequence of the events leading to his return to Vietnam remains 
unclear. We regularly urge the Governments of Vietnam and Thailand to 
strengthen legal and other protections to prevent the repatriation of 
refugees and asylum seekers to origin countries against their will. 
Press freedom is fundamental to transparency and accountable 
governance. Journalists often do their work at great risk, and 
governments and citizens worldwide need to protect them.

    Question. In May of this year, I sent a letter along with 25 of my 
colleagues in the House and Senate, raising the cases of three jailed 
journalists in Vietnam who work for Radio Free Asia and the Voice of 
America--two U.S.-funded organizations that are under the U.S. Agency 
for Global Media.

    Will the Department consider measures against Vietnamese 
authorities if these individuals are not released? If so, which 
measures?
    Answer. Press freedom is fundamental to transparency and 
accountable governance. We are aware of the case and have engaged on it 
at the highest levels, including in bilateral fora such as the annual 
U.S-Vietnam Human Rights Dialogue. The United States regularly raises 
cases of individual concern at all levels of government, to include 
during visits by President Trump to Vietnam and PM Phuc to Washington. 
We continuously call on Vietnam to respect and protect human rights and 
fundamental freedoms for all in Vietnam, consistent with its 
international obligations and commitments.
    We continue to assess the situation and adjust our response 
accordingly.

                                  <all>
</pre></body></html>
